U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                           Review of the United
                          States Marshals Service
                             Judicial Security
                                  Process

                                      Report Number I-2004-004




                                      March 2004
                                  EXECUTIVE DIGEST


       Protecting the federal judiciary is one of the eight strategic goals of the
Department of Justice (Department),1 and it is the primary mission of the
United States Marshals Service (USMS).2 No federal judges have been
assassinated since 1989, but two federal judges have been assaulted in the
last three years, and the USMS receives almost 700 threats against
members of the judiciary each year. Further, in the 10 years since the first
World Trade Center bombing trials, the federal judiciary has conducted an
increasing number of high-threat trials, such as those involving
international and domestic terrorism, international drug trafficking,
organized crime, and gang activity.3 Since fiscal year (FY) 2001, Congress
has increased funding for judicial security by about 50 percent and
authorized the USMS to hire 106 new Court Security Inspectors. However,
Congress has expressed concern that “as the program has grown sufficient
attention has not been provided to program and budget administration….”4

      The Office of the Inspector General (OIG) evaluated the USMS’s efforts
since September 11, 2001, to improve its protection of the federal judiciary.
We focused specifically on the USMS’s ability to assess threats and
determine appropriate measures to protect members of the federal judiciary
during high-threat trials and while they are away from the courthouse.

RESULTS IN BRIEF

       We found that since September 11, 2001, the USMS has placed
greater emphasis on judicial security by hiring 106 court security inspectors
and increasing courthouse security. However, the USMS’s assessments of
threats against members of the federal judiciary are often untimely and of
questionable validity. Further, the USMS has limited capability to collect
and share intelligence on potential threats to the judiciary from USMS
districts, the Federal Bureau of Investigation’s (FBI’s) Joint Terrorism Task


       1   U.S. Department of Justice, FY 2001-2006 Strategic Plan, November 2001, p. 99.

        2 Other major USMS missions include supporting the effective operation of the

judicial system through the execution of federal warrants; housing and transporting federal
prisoners in custody; and ensuring the security, health, and safety of Government
witnesses and their immediate dependents.

       3On February 26, 1993, terrorists attempted to blow up the World Trade Center by
detonating a rental truck loaded with explosives in the underground parking garage.

       4   Conference Report 108-10, February 13, 2003, p. 735-736.

U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
Forces (JTTFs), and other sources. Finally, the USMS lacks adequate
standards for determining the appropriate protective measures that should
be applied to protect the judiciary against identified potential risks (risk-
based standards) during high-threat trials and when they are away from the
courthouse.

USMS Threat Assessments are Untimely and of Questionable Validity

      Timely threat assessments are essential to alert USMS districts to
threats with a higher potential for violence, but the USMS routinely fails to
meet its internal standard that requires threats against judges to be
assessed within a specific time period.5 We found that more than
73 percent of the threat assessments conducted from FY 2000 through
FY 2003 took more than the standard time.6 Furthermore, the USMS failed
to improve the timeliness of its threat assessments despite a 30 percent
decrease in the number of reported threats since FY 2000. In fact, the
number of assessments that took significantly longer than the standard
time to complete more than quadrupled from 24 in FY 2000 to 103 in
FY 2003.

      In addition to taking weeks or months to complete, the validity of
USMS assessments is questionable because the historical threat database
used to assess reported threats has not been updated since 1996. The
database contains no information on the more than 4,900 threats made
since then – including threats related to terrorism cases that have occurred
since September 11, 2001.

       Further, when allocating resources and determining protective
measures in response to threats, the USMS continues to rely on statistics
developed from the historical threat database which indicate that only about
one out of every ten threats escalated or resulted in violence. Because the
information in the historical threat database is outdated, we question the
validity of threat assessments or resource allocations based on this data.

USMS Has Limited Capability to Collect and Share Intelligence

      We also found that the USMS has limited capability to collect and
share intelligence on threats to the federal judiciary among its districts and

       5 The exact time standards are considered by the USMS to be law enforcement
sensitive.

       6  To obtain sufficient data for comparison we reviewed data from FY 2000 through
FY 2003, two years before and two years after September 11, 2001.
______________________________________________________________________________________
U.S. Department of Justice                                                            ii
Office of the Inspector General
Evaluation and Inspections Division
its representatives on the FBI’s JTTFs. The limitations persist because the
USMS has neither acted on internal studies that identified the need for the
USMS to improve its capability to collect and share intelligence nor updated
internal guidance to implement the authority granted by Congress in the
Patriot Act.7 Specifically:

       •   The USMS has no central program to collect, assess, and share
           intelligence on threats to the judiciary. Prior to 1994, the USMS
           operated a centralized intelligence collection and assessment
           program in its Threat Analysis Division. In a 1994 reorganization,
           the USMS Director eliminated the Division and did not reassign its
           duties. After September 11, 2001, internal USMS studies
           identified the need for the USMS to establish a centralized program
           to collect and share intelligence from the districts and the USMS
           representatives on JTTFs. The studies also recommended that the
           USMS establish liaisons at the Central Intelligence Agency, the
           Foreign Terrorist Tracking Task Force, and the Secret Service
           Protective Intelligence Division, among other intelligence
           organizations. As of October 2003, the USMS had not developed
           any centralized intelligence-sharing capability.

       •   Outdated USMS internal guidance limits intelligence collection. An
           April 5, 1996, USMS Office of General Counsel (OGC) opinion,
           based on 1983 Attorney General Guidelines, directed the USMS to
           limit its collection of intelligence, including information in special
           databases used to track and assess threats to the judiciary.8 The
           Patriot Act has since provided new authority for law enforcement
           agencies to collect and share intelligence related to terrorism and
           other threats, and the Attorney General Guidelines have been
           revised to reflect this new authority. However, the USMS has not
           revised its internal guidance to implement the new authority to
           collect intelligence.

       •   The USMS does not fully participate in the FBI’s JTTFs. Some
           U.S. Marshals have assigned Deputy Marshals to FBI JTTFs, but

       7 Uniting and Strengthening America by Providing Appropriate Tools Required to

Intercept and Obstruct Terrorism Act of 2001 [Patriot Act], Public Law 107-56,
October 25, 2001.

       8  The Attorney General’s Guidelines on General Crimes, Racketeering Enterprise,
and Domestic Security/Terrorism Investigations (March 1983) described authorities and
activities related to criminal investigations. The Guidelines only mention the FBI but have
been interpreted as applying to all Department criminal investigations.
______________________________________________________________________________________
U.S. Department of Justice                                                             iii
Office of the Inspector General
Evaluation and Inspections Division
           the USMS has no service-wide policy to ensure that it is
           represented on each JTTF. As of October 2003, JTTF membership
           rosters provided by the FBI showed that the USMS has assigned
           50 Deputy Marshals to 29 of the FBI’s 56 field office JTTFs. Of the
           50 Deputy Marshals, 25 are full-time representatives and 25 are
           part-time representatives. Further, the USMS’s Memorandum of
           Understanding with the FBI requires that JTTF representatives
           have Top Secret clearances, but we found that only 33 of the 50
           USMS representatives to the JTTFs had Top Secret security
           clearances. According to the Chairman of the USMS Executive
           Working Group formed by the Director in September 2001 to
           examine USMS intelligence capabilities, the wide spread lack of
           clearances is a barrier to improving intelligence collection and
           sharing.

       •   The USMS lacks the secure telecommunication systems required to
           effectively share intelligence on threats to the judiciary. As of
           August 20, 2003, only 51 of the 94 USMS districts had secure
           communications equipment required to transmit classified
           information.

      In the two high-threat trials we reviewed, the USMS’s limited
capability to collect and share JTTF intelligence affected the USMS’s efforts
to protect the federal judiciary. In one trial of individuals who were
providing financial aid to terrorists, the USMS did not receive classified
JTTF intelligence that the district considered critical to trial security
operations because the district’s part-time representative to the JTTF did
not have a Top Secret security clearance. In the other trial, the USMS was
not informed of the imminent arrest of six terrorists identified by a JTTF
investigation until just before the arrests. The short notice precluded the
USMS from taking the extensive security measures required to secure a
large number of suspected terrorist prisoners.

USMS Lacks Adequate Standards for Determining Appropriate
Protective Measures

      We found that the USMS lacks adequate risk-based standards for
determining the appropriate measures to protect the judiciary during
high-threat trials and to protect threatened judges away from the
courthouse (protective services details). Without risk-based standards, the
USMS cannot ensure that districts consistently apply similar protective
measures in response to similar threats, and that limited resources for
protecting the judiciary are used in the most effective manner.
______________________________________________________________________________________
U.S. Department of Justice                                                          iv
Office of the Inspector General
Evaluation and Inspections Division
       High-threat trials. We found that the USMS’s Policy and Procedures
Manual (Manual) has not been updated in over a decade and provides
limited and outdated guidance on specific protective measures for
high-threat trials.9 The Manual offers no guidance on providing security for
trials of individuals associated with international terrorist groups, or for
many other types of trials that present significant risks to the judiciary,
such as criminal cases involving espionage, prosecutions of gang violence,
and cases with cooperating witnesses. Further, the Manual does not
provide guidance on the use of special equipment such as trace explosive
detectors, armored cars, body armor, and enhanced prisoner restraints.

       Protective services details. We found that the USMS’s guidance on
individual protective measures is outdated.10 The guidance does not
address the use of equipment that has become more widely available in
recent years, such as perimeter cameras, car alarms, home alarms, and
cellular phones, and has not been updated to account for threats that are
beyond the ability of the USMS alone to mitigate, such as the threat of
retaliation by international terrorists. Further, the guidance still directs
readers to offices and functions that were eliminated almost ten years ago.

        Although specific protective measures must be selected based on the
characteristics of each individual case, in the absence of risk-based
standards we found that districts did not consistently apply similar
protective measures in response to similar threats. For example, one
district used the USMS Special Operations Group (SOG) (a specially trained
and equipped unit deployed in high-risk law enforcement situations)
extensively during a high-threat trial while another did not use the SOG at
all for a similar high-threat trial. Likewise, the protective services details
provided judges varied significantly in the protective measures implemented.
The extent and appropriateness of the protective measures applied in each
case could not be evaluated fully because the USMS does not complete
after-action reports on the measures taken during high-threat trials or
protective services details.



        9 USMS Policy and Procedures Manual, Volume X, Judicial and Court Security,

July 1, 1993.

       10 The USMS’s official policy is Policy Directive 99-07, January 7, 1999, Protective
Investigations. The Policy Directive does not address protective services details, but refers
to guidance in The U.S. Marshals Service Protective Investigations Program, A Procedural
Handbook for Threat Investigators and Supervisors, January 1999.

______________________________________________________________________________________
U.S. Department of Justice                                                           v
Office of the Inspector General
Evaluation and Inspections Division
      Without adequate risk-based standards, the USMS cannot effectively
determine when districts should be provided additional resources to support
high-threat trials or protective services details. In FY 2002, the USMS
provided additional funding to districts to support 117 high-threat trials.11
However, in response to our national survey, districts estimated that about
20 percent of all trials in 2002 involved a “substantial potential for violence.”
Given that there were 12,817 trials completed in U.S. District Courts in
FY 2002, the number of trials with “substantial” risks could have exceeded
2,400.12 Without adequate risk-based standards, and without after-action
reports to evaluate and improve its protection of the judiciary, the USMS
cannot effectively ensure that the most significant risks are addressed and
that resources are used appropriately.

Conclusions

      The USMS should take immediate steps to improve its ability to
assess threats to the federal judiciary. Currently, USMS threat assessments
are not timely and no new threat information has been entered into the
historical threat database used to assess new threats since 1996. The lack
of current threat information in the database undermines the validity of new
assessments both for determining appropriate protective measures and for
allocating resources.

      While the USMS has taken steps since September 11, 2001, to
evaluate its capability to collect and share intelligence, as of October 2003
the USMS had not acted on internal studies that documented the need to
reestablish an intelligence program to collect, analyze, and disseminate
information related to high-threat trials and threats to the federal judiciary.

       Finally, the USMS needs risk-based standards for determining the
appropriate protective measures that should be applied to protect the
judiciary during high-threat trials and when using protective services
details. In addition, current risk-based standards are also needed to more
effectively identify those high-threat trials and protective services details for
which the districts should receive additional resources.



       11 We asked how many requests were rejected, but the USMS Judicial Security
Division (JSD) responded that it tracks only those requests that are approved.

       12Administrative Office of the United States Courts (AOUSC) FY 2002 Annual
Report, Table C-7, U.S. District Courts – Civil and Criminal Trials Completed.

______________________________________________________________________________________
U.S. Department of Justice                                                          vi
Office of the Inspector General
Evaluation and Inspections Division
Recommendations

       To improve the USMS’s capacity to carry out its primary mission
of protecting the federal judiciary, we recommend that the USMS take
the following actions:

       1. Ensure that all threats to the judiciary are assessed within
          established timeframes.

       2. Update the historical threat database or develop a new database to
          perform comparative assessments.

       3. Assign full-time representatives to all 56 FBI field office JTTFs and
          ensure effective USMS liaison with intelligence agencies (e.g., the
          U.S. Secret Service’s National Threat Assessment Center, the
          Central Intelligence Agency, and the National Security Agency).

       4. Create a centralized capability to identify, collect, analyze, and
          share intelligence with USMS districts, as well as with the USMS
          JTTF representatives and other intelligence liaisons.

       5. Require that all Chief Deputy Marshals and USMS JTTF
          representatives have Top Secret clearances, and ensure that each
          district has secure communication equipment.

       6. Revise the 1993 Judicial and Court Security Manual and the 1999
          Offsite Security Booklet for Judicial Officers to establish risk-based
          standards and require after-action reports for high-threat trials
          and protective details.




______________________________________________________________________________________
U.S. Department of Justice                                                          vii
Office of the Inspector General
Evaluation and Inspections Division
                                    TABLE OF CONTENTS



INTRODUCTION ....................................................................................1

        Background ..................................................................................1

        Purpose, Scope, and Methodology ...............................................11

RESULTS OF THE REVIEW.................................................................13

        Threat Assessments

                Assessment Timeliness and Validity...................................13

                Intelligence Collection and Sharing ....................................18

        Standards for Protective Measures

                High-Threat Trials .............................................................25

                Protective Services Details .................................................28

CONCLUSIONS AND RECOMMENDATIONS ........................................31


APPENDIX I USMS Judicial Security Improvements ………………………33

APPENDIX II USMS Comments on the Draft Report……….………………35

APPENDIX III OIG Analysis of USMS Comments….……….……………….46




______________________________________________________________________________________
U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                  INTRODUCTION


BACKGROUND

       Protecting the federal judiciary is one of the eight strategic goals of the
Department of Justice (Department).13 The United States Marshals Service
(USMS) is charged with meeting that goal by protecting members of the
federal judiciary, court officers, and other threatened persons.14 To carry
out its mission, the USMS Director and 94 U.S. Marshals appointed by the
President and confirmed by the Senate oversee the operations of 4,761
employees (3,342 Deputy Marshals and 1,419 administrative personnel) at
350 locations around the country.
                                                       Figure 1 – Assaults Against the
       The USMS measures its                                      Judiciary
effectiveness in meeting the strategic             2

goal to protect the judiciary by
tracking the number of assaults
against the more than 2,000 federal
judges and magistrates that the                    1
                                                                   1       1

USMS protects. The target for
success is zero assaults. As shown in
Figure 1, there were no assaults in
FYs 1999 and 2002, but there was                   0
                                                           0                       0

one each in FY 2000 and FY 2001.                         FY 99   FY 00    FY 01   FY 02


                                                Source: Department of Justice
      Since FY 2001, Congress has                FY 2002 Performance Report
increased the USMS’s funding for
judicial security by approximately 50 percent. On April 1, 2003, the
Attorney General asked Congress for more resources for judicial security.
Stating that “[s]ecurity surrounding terrorist-related court proceedings
requires an unprecedented level of protection for all trial participants
because of the global interest and intense media attention,” the Attorney
General asked for “significant resources to improve courtroom security…



       13Department of Justice FY 2002 Performance Report/FY 2003 Revised Final,
FY 2004 Performance Plan, February 2003.

       14Other USMS missions include ensuring the security, health, and safety of
government witnesses and their immediate dependents; maintaining custody, housing, and
transporting federal prisoners; and executing federal warrants.

______________________________________________________________________________________
U.S. Department of Justice                                                           1
Office of the Inspector General
Evaluation and Inspections Division
associated with terrorist-related court proceedings.”15 While increasing
funding for judicial security, Congress also has expressed concern that “as
the program has grown sufficient
attention has not been provided to                 High-Threat Trials
program and budget
                                          Although trials with greater than normal risk
administration….”16                    may be referred to as “high risk”, “high profile,”
                                              “high visibility,” or “sensitive” trials, the term
The USMS Judicial Security                    “high-threat trial” is most commonly used by the
Division                                      USMS and by Congress. Recent high-threat trials
                                              included:
      The USMS Judicial Security                 • In Charlotte, North Carolina, members of a
Division (JSD) provides for the                    cell who provided material support to
general security of federal                        Hezbollah pled guilty to conspiring to aid
courthouses, federal courtrooms                    terrorism (June 2002).
in other buildings, and the
                                                 • In Buffalo, New York, members of a “sleeper
personal security of the federal                   cell” (commonly called the Lackawanna Six)
judiciary when they are most                       pled guilty to supporting terrorism (May
vulnerable − away from their                       2003).
courtrooms and chambers.17
                                                 • In Detroit, Michigan, two individuals were
                                                   convicted of conspiring to support Islamic
       In FY 2002, the JSD                         extremists (June 2003).
supervised security for 117
high-threat trials, coordinated 150              • In Tampa, Florida, eight individuals were
personal protective services details               indicted for alleged support of the
for Supreme Court Justices                         Palestinian Islamic Jihad (ongoing).
traveling outside the Washington
                                                 • In Alexandria, Virginia, an Al Qaeda loyalist
Metropolitan Area, and                             was charged as an alleged conspirator in
coordinated security for 165                       attacks of September 11, 2001 (ongoing).
judicial conferences and 20 other
events attended by the federal                Sources: Senate Report 107-218, Departments of
                                              Commerce, Justice, and State, Appropriations Bill,
judiciary. The JSD directs the                2003; White House Progress Report on the Global War
following three program areas.                on Terrorism, September 2003.


      Court Security Program.
This program provides operational and administrative support to the 94

       15 Testimony of the Attorney General before the Commerce, Justice, State and

Judiciary Subcommittee of the Senate Appropriations Committee on April 1, 2003.

       16   Conference Report 108-10, February 13, 2003, p. 735-736.

       17  The three federal judges assassinated in the last 25 years were away from the
courthouse when they were killed (Judge Wood in 1979; Judge Daronco in 1988; and
Judge Vance in 1989). All the assassinations were related to cases on the judges’ dockets.
______________________________________________________________________________________
U.S. Department of Justice                                                              2
Office of the Inspector General
Evaluation and Inspections Division
                               Figure 2 - USMS Organization

                                                          Director

                                         General
                                         Counsel


                                                     Assistant Director



                                    Associate Director
                                    for Administration


           United States              Judicial Security              Prisoner Services     Investigative Services
            Marshals                      Division                       Division                 Division



        Central Courthouse             Court Security                Judicial Protective        Investigative
        Management Group                 Program                     Services Program            Operations



                                  Operational Support Team                                 Analytical Support Unit




      Source: DOJ Organization and Functions Manual, August 2002.




USMS districts to assist them in protecting the federal judiciary and other
officers of the court. The program provides operational and administrative
assistance on security for judicial conferences and high-threat trials;
security surveys of federal courts and other facilities and some state and
local courts; security education programs for federal and state courts;
security details for Supreme Court Justices outside the District of Columbia
Metropolitan Area; and protective investigations and protective services
details for the federal judiciary.

       The program is administered by the Operational Support Team (OST),
which consists of four Senior Court Security Inspectors (Deputy Marshals)
and administrative personnel. Prior to FY 2003, the USMS had 3 Senior
Court Security Inspectors assigned to the OST at USMS headquarters and
28 Circuit Court Security Inspectors assigned to the 13 judicial circuit
courts across the country. Shortly after September 11, 2001, at the request
of the Administrative Office of the United States Courts (AOUSC), Congress
provided 106 additional District and Circuit Court Security Inspector




______________________________________________________________________________________
U.S. Department of Justice                                                           3
Office of the Inspector General
Evaluation and Inspections Division
positions.18 In May 2003, the USMS deployed the 106 Court Security
Inspectors to the 94 federal district courts and 12 of the 13 circuit courts.19

      Judicial Protective Services Program. This program provides about
4,000 contract guards, called Court Security Officers (CSOs), assigned to all
federal district courts and circuit courts. The CSO’s provide day-to-day
security at courthouse entrances and inside the courtroom.

        Central Courthouse Management Group. This group works with
district personnel, the General Services Administration, and the AOUSC
when planning the construction of new federal courthouses and the
renovations of existing courthouses.20 The group also provides security
expertise concerning prisoner movements and the safety of detention
facilities.

The Analytical Support Unit (ASU)

       In addition to JSD, the Analytical                   Warrant Information Network
Support Unit (ASU) located in the
Investigative Services Division (ISD)                             WIN is the USMS’s central law
                                                          enforcement information system. WIN
supports the USMS’s judicial security effort.             contains more than 700,000 subjects of
The ASU provides information and                          USMS        fugitive     and     protective
investigative support to USMS investigators               investigations and is used to track the
protecting the judiciary and conducting                   status of all federal warrants to aid in
fugitive investigations. The ASU works with               the investigations of all federal fugitives.
                                                          It is also used to access the National
the Social Security Administration, the                   Law Enforcement Telecommunication
Department of Defense, Defense                            System (NLETS) and National Crime
Information Systems Agency, the                           Information Center (NCIC) systems to
Department of Agriculture, and various                    obtain criminal record information from
high intensity drug trafficking task forces to            other federal, state, local and foreign law
                                                          enforcement agencies.
locate fugitives. The ASU also administers
the Warrant Information Network (WIN) and                 Sources: USMS Investigative Operations
conducts assessments on threats to the                    Manual, April 2003. Report No. 03-03, Office
federal judiciary.                                        of the Inspector General, November 2002.



       18   AOUSC is the administrative and fiscal component of the federal judiciary.

       19USMS Headquarters provides the Court Security Inspector for the Court of
Appeals for the Federal Circuit.

       20  On February 13, 2003, Congress directed that the USMS “conduct a study with
an independent consultant on…the unique relationship between the Federal Judiciary, the
U.S. Marshals Service, and the Federal Protective Service in…providing facilities security for
the judiciary.” (Conference Report to Accompany H.J. Res. 2, House Report 108-10.)
______________________________________________________________________________________
U.S. Department of Justice                                                              4
Office of the Inspector General
Evaluation and Inspections Division
Threats to the Judiciary

       The USMS Policy and Procedures Manual, August 6, 1993, defines
threats as any communications or actions intended to intimidate, impede,
or interfere with a member of the judiciary, their staff, or their family.
Threats may be direct or may be implied by suspicious behavior, such as
stalking or demonstrating unusual or excessive interest in a judge or a
judge’s family. Threats can be verbal or written, and can be delivered in
person, by mail, by telephone, or by e-mail. In some cases, threats may be
reported by a third party, such as when an informant tells authorities of a
plan to harm a judge. According to the USMS, most threats against judges
are made by individuals angry about the outcome of a particular court case
in which they, or people they know, were involved.21

      The USMS requests federal judges and their staffs to report every
threat. However, in 1994 the General Accounting Office (GAO) found that
almost 25 percent of the judges responding to its survey did not report all or
even most of the threats they received to the USMS.22 Further, in November
2001 a report prepared for the AOUSC concluded that the off-site security
program, particularly the reporting of threats, was underutilized by
judges.23 From FY 1998 through FY 2003, the USMS responded to an
average of 691 threats to the federal judiciary each year, most of which
came from known sources (Table 1).
                        Table 1 − Threats to the Judiciary
                            FY 1998 through FY 2003
                           Number             Source
  Fiscal Year             Reported          Unknown                Source Known
     1998                    790           104 (13%)                686 (87%)
     1999                    814           109 (13%)                705 (87%)
     2000                    702           109 (16%)                593 (84%)
     2001                    690           126 (18%)                564 (82%)
     2002                    565           101 (18%)                464 (82%)
     2003                    585           105 (18%)                480 (82%)
Source: USMS


       21 The USMS labels threats to members of the federal judiciary “inappropriate
communications.” The USMS Protective Services Program: A Procedural Handbook for Threat
Investigators and Supervisors, January 1999.

      22 “Comprehensive Risk-Based [Federal Judicial Security] Program” Should be Fully

Implemented, GAO/GGD-94-112, April 1994.

       23   A Study of the Court Security Program, November 2001 (AOUSC Study).
______________________________________________________________________________________
U.S. Department of Justice                                                           5
Office of the Inspector General
Evaluation and Inspections Division
      The USMS also has assigned Deputy Marshals to other Department of
Justice components to collect and share information about potential threats
to members of the federal judiciary. These include:

       •    One Deputy Marshal is assigned to the Federal Bureau of Prisons’
            (BOP) Sacramento Intelligence Unit (SIU) to collect information,
            monitor high-threat trials, and conduct threat assessments of
            groups targeted by large-scale arrest operations.24

       •    One Deputy Marshal is assigned to the Drug Enforcement
            Administration El Paso Intelligence Center (EPIC) to identify any
            information related to high-threat trials involving drug charges.25

       •    Fifty Deputy Marshals are assigned to 29 of the Federal Bureau of
            Investigation’s (FBI) 56 field office Joint Terrorism Task Forces
            (JTTFs), and one Deputy Marshal is assigned to the National JTTF
            (NJTTF). The JTTFs provide access to intelligence on potential
            terrorist threats and trials of alleged terrorists.26

       If a USMS representative to one of the above operations identifies a
potential threat to the judiciary, the representative forwards the information
to the OST and the appropriate districts.

The USMS Response to Threats to the Judiciary

       When a threat is reported, a Deputy Marshal conducts a preliminary
inquiry to determine the source of the threat and initiate an appropriate
response. Unless the inquiry demonstrates the clear absence of significant
risk, a protective investigation is initiated. If a threat is initially assessed as


       24SIU is part of the BOP Intelligence Section, Correctional Services Branch,
Correctional Programs Division. It provides operational intelligence and direct investigative
support to various field operations.

       25 EPIC collects intelligence on drug movements and immigration violations and can

provide real-time information from its own and other federal databases.

       26  The first FBI JTTF was created in 1980. As of November 2003 there were 84
JTTFs operating across the United States. There is one JTTF operating in each of the 56
FBI field offices. Each JTTF includes members from federal, state, and local law
enforcement organizations. The JTTFs are intended to enhance the collection and sharing
of information and intelligence, and to work on specific FBI domestic and international
terrorism investigations. The USMS has formally participated in JTTFs since July 17,
2001, when it entered into a Memorandum of Understanding with the FBI.
______________________________________________________________________________________
U.S. Department of Justice                                                              6
Office of the Inspector General
Evaluation and Inspections Division
likely to be carried out, the USMS will employ a range of interim protective
measures to prevent the judge from being harmed.

       The districts are responsible for
providing the Deputy Marshals,                          Protective Investigations
administrative support, and any other
resources needed during the first days                 “A protective investigation is a
of a protective services detail. If the             process used by the USMS to manage a
                                                    case to ensure that purveyors of
protective services detail will take                Inappropriate     Communications       no
longer than a few days, the districts               longer present a threat to the designated
may request, from the OST, additional               protectee.   A protective investigation
staffing and financial resources. The               incorporates a range of tactics and
protective services detail ends when the            strategies designed to identify, diffuse,
                                                    and manage any potential risk of harm
USMS determines that the judge is no                to a protectee. This may include, when
longer in danger.                                   appropriate, committing the subject to a
                                                    mental hospital, obtaining restraining
       The USMS Policy and Procedures               orders, arresting the subject, or
Manual, August 6, 1993, requires                    maintaining contact with the subject.”
districts to report the result of every       Source: “Offsite Security Booklet for Judicial
preliminary threat investigation and          Officers,” (USMS Publication 94, March
any protective measures taken to the          1999)
OST in a “Preliminary Threat Report.”27
In addition, districts are required to notify the FBI, which determines if the
threat warrants a criminal investigation.28

      At USMS Headquarters, the preliminary threat report is reviewed by
the OST and forwarded to the ASU for an assessment of the legitimacy and
seriousness of the threat.29 USMS Policy Directive 99-07, Protective
Investigations, January 7, 1999, requires the ASU to complete its
assessment and enter the results into the WIN within a specified time
period. 30

       27 The current form used for the report is the USM-550, Preliminary Threat Report

(Revised 1/97).

        28 The FBI criminal investigation focuses on collecting evidence that shows a crime

was committed. The USMS protective investigation focuses on whether the intent, motive,
or ability exists to harm a member of the federal judiciary.

       29 The ASU refers to its part of the threat assessment process as “deliberative
analysis.” We use the term “assessment” to refer to the entire process and its parts.

       30USMS Investigative Operations Manual, April 2003. The OIG audited the WIN
system in FY 2002. See Audit Report No. 03-03, November 2002.

______________________________________________________________________________________
U.S. Department of Justice                                                           7
Office of the Inspector General
Evaluation and Inspections Division
       In conducting its threat assessment, the ASU determines if the threat
meets the specific criteria required for the communication or other behavior
to be considered a threat. If the criteria are met, and if the identity of the
person who made the threat is known, the ASU queries various public and
law enforcement databases to determine whether the person has made
threats before and if the person has any other law enforcement records.

       Next, the ASU conducts a two-step threat assessment. In the first
step, the ASU completes a comparative assessment that matches the
characteristics of the current threat to threats in its historical threat
database to identify prior threats with similar characteristics. The
comparative assessment results in a report describing how closely the
current threat matches the profiles of past threats with known outcomes.
The historical threat database contains information on 3721 threats
reported from 1980 to 1996. Each threat is catalogued by up to 30
variables, including the date of the threat, the method of delivery, if the
initiator of the threat was identified, his or her motive, and if he or she
carried out the threat.31 Of the threats listed in the historical threat
database, no additional action happened after the threat was received in
91 percent of the cases (the USMS terms these types of threats as specious);
there was some escalation of activity (such as a suspicious act or an
additional communication) in 5 percent of the cases; and the threat resulted
in a USMS-defined “violent outcome” (such as an act of vandalism on a
judge’s property or an attempted physical assault) in 4 percent of the cases
(Table 2).

                Table 2 - Historical Threat Database Outcomes
                                 1980 to 1996
                 Outcome                Number         Percent
                  Specious               3,296           91.02
                 Enhanced                  182            5.03
                   Violent                 143            3.95
                    Total               3,621          100.00
        Source: USMS (Note: ASU reports that while there are 3,721 threats in
        the database, only 3,621 have associated outcomes. The remaining 100
        cases had no outcome recorded.)

      In the second step of the assessment, the ASU examines the threat
using a proprietary computer-based threat analysis system. The threat

       31  The USMS stopped entering threat information into the historical threat database
in FY 1996 and began entering this data into WIN. However, the data in WIN is not used
for automated threat assessment.
______________________________________________________________________________________
U.S. Department of Justice                                                             8
Office of the Inspector General
Evaluation and Inspections Division
analysis system is customized to address the specific needs of the USMS in
protecting the federal judiciary by assessing threats using questions about
the behavior and background of the threat initiator. The system organizes
the details of the current threat and allows the analyst to compare the
threat with known outcomes of prior cases.

      The assessment results in a rating from one through ten, with higher
ratings indicating cases with greater similarity to those in which there is a
greater risk that the threat will escalate. Lower ratings indicate that the
case has characteristics similar to those that have not escalated, and
therefore are considered less serious. Of the 4,297 threats that the USMS
assessed using the system through October 31, 2003, about 22 percent
received a higher rating (Table 3, next page).

      The comparative and threat analysis system assessments should have
similar outcomes. If the comparative assessment indicates low risk, then
the threat analysis system should indicate low risk as well. When
comparative and threat analysis system assessments do not show a similar
outcome, the ASU resolves the disparity by requesting additional
information from the district to reassess the threat, or provides possible
explanations for the disparity to the district. The ASU enters the
comparative and threat analysis system assessment results into the WIN.

      The district investigating the threat uses assessment results posted in
WIN to help determine if adequate protective measures are in place. If a
protective investigation is conducted, the WIN record is used by the district
and the ASU to track and manage the case as new information is collected
and additional investigative work is accomplished. If significant new
information is collected, the district can request that the ASU reassess the
threat (Figure 3, next page).




______________________________________________________________________________________
U.S. Department of Justice                                                           9
Office of the Inspector General
Evaluation and Inspections Division
                          Table 3 – Ratings for Threats

               Rating            Number of Threats               Percent
                 10                          0                       0
                  9                          0                       0
                  8                         63                     1.5
                  7                        324                     7.5
                  6                        564                    13.1
                  5                        871                    20.2
                  4                      1,754                    40.9
                  3                        643                    15.0
                  2                         72                     1.7
                  1                          5                     0.1
                Total                    4,297                   100.0
        Source: USMS




      Figure 3 - USMS Threat Assessment and Protective Measures




______________________________________________________________________________________
U.S. Department of Justice                                                         10
Office of the Inspector General
Evaluation and Inspections Division
Purpose, Scope, and Methodology

       The purpose of this review was to examine the USMS’s efforts to
ensure the safety of more than 2,000 federal judges and magistrates. We
evaluated the USMS’s efforts since September 11, 2001, to improve its
protection of the federal judiciary. We focused specifically on the USMS’s
ability to assess threats and determine appropriate measures to protect
members of the federal judiciary during high-threat trials and while they are
away from the courthouse. We conducted the fieldwork for this review from
March 3 through October 18, 2003.

       Interviews: We interviewed USMS headquarters officials in the JSD,
ISD, and the Office of General Counsel (OGC). We visited and interviewed
USMS district officials in the Western District of North Carolina and the
Western District of New York to review the security measures associated
with recent high-threat trials in those districts. We visited the Southern
District of New York for information on high-threat trials and on that
district’s long-running protective services details for two federal judges who
presided over previous terrorist trials. We reviewed USMS files collected on
these two long-running protective services details and other protective
services details. Substantial portions of those records are classified. For
additional information on the threat assessment process, we interviewed
officials with the U.S. Capitol Police and the U.S. Secret Service about their
respective protective missions.

      Databases: We reviewed and analyzed threat data maintained by the
ASU, including the historical threat database, computerized threat analysis
system, and WIN. We reviewed and analyzed USMS security clearance data
provided by its Human Resources Division. We also reviewed records
maintained in the USMS’s Judicial Protection Information System, which
was established “to identify security risks and to develop operating plans
and carry out security measures to counteract threat situations” for
information related to judicial security.32

       Surveys: We sent a judicial security survey to all 94 USMS district
offices (85 districts responded). We asked the Judicial Security Division
(JSD) to conduct a self-assessment and to report post-September 11, 2001,
improvements in the judicial security process. The JSD self-assessment
appears in Appendix I.



       32  64 Federal Register 60832, 43, November 8, 1999.
______________________________________________________________________________________
U.S. Department of Justice                                                         11
Office of the Inspector General
Evaluation and Inspections Division
      USMS Training: We attended two USMS training sessions on threat
assessments and the high-threat trial management process. The first
session occurred on April 11, 2003, and involved the threat assessment
portion of the Advanced Deputy United States Marshal training. The second
session occurred on May 6 and 7, 2003, and involved District and Circuit
Court Security Inspector training in San Antonio, Texas.

       Additional Resources: The U.S. Capitol Police provided sample
documents and other written information regarding its threat assessment
process, and the U.S. Secret Service provided copies of several publications
and two videotapes on its threat assessment process. In addition, we
reviewed the literature generally available regarding the protective services
field. We reviewed more than 50 documents, including Departmental
publications, articles in professional journals, GAO reports, congressional
committee reports and hearing transcripts, and other publicly available
congressional information. Among the documents we reviewed were:

       •   The Attorney General’s Guidelines on General Crimes,
           Racketeering Enterprise and Domestic Security/Terrorism
           Investigations (March 1983 and the revision dated 2002).

       •   Strategic Plan, U.S. Department of Justice, Fiscal Years 2001-
           2006, November 2001.

       •   Performance & Accountability Report, U.S. Department of Justice
           FY 2002, January 2003.

       •   Personal Security Handbook, U.S. Department of Justice, United
           States Marshals Service, January 1, 2000.




______________________________________________________________________________________
U.S. Department of Justice                                                         12
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


       Despite the increased Departmental emphasis on
       security since September 11, 2001, we found significant
       shortcomings in the USMS’s ability to assess threats,
       collect and analyze intelligence, and manage judicial
       protection efforts. The timeliness of the USMS’s threat
       assessments routinely exceeded its internal standard,
       and often took weeks to complete. The quality of the
       USMS’s assessments is questionable because the
       assessment process relies on an outdated historical
       threat database. Moreover, the USMS has failed to act
       on internal studies conducted since September 11, 2001,
       that identified the need to improve its capability to
       collect and share intelligence to assess threats to the
       federal judiciary. The USMS’s shortcomings in quickly
       and effectively assessing threats, including those
       associated with terrorist and other high-threat trials,
       increase the risk that members of the federal judiciary
       may not be adequately protected.


The USMS Headquarters’ Assessments of Reported Threats Routinely
Exceed Internal Standard

       After two federal judges were assassinated in the late 1980s, the
USMS developed a comprehensive system to assess threats and provide
protective measures for federal judges. To ensure that threats were rapidly
assessed and appropriate protective measures implemented, the USMS
established policies and performance standards that require the ASU to
assess all threats to the judiciary and post the results in WIN within a
specified time period. To evaluate the timeliness of the ASU’s assessments,
we compared the date that ASU received the threat from the OST and the
date that the ASU entered the assessment results in WIN from FY 2000
through FY 2003. We found that only 27 percent of threat assessments
were completed within the standard time (Figure 4, next page).

      Because threat assessments provide analytical information the JSD
uses to allocate additional resources to districts to help them respond to
threats when protective services details need to extend beyond a few days,
we also examined how many threat assessments the ASU completed within
a few days. We found that only 42 percent of the threat assessments were
______________________________________________________________________________________
U.S. Department of Justice                                                         13
Office of the Inspector General
Evaluation and Inspections Division
                       Figure 4 - Completed ASU Threat Assessments
                                    FY 2000 Through FY 2003
                               800

                               700

                               600

                               500

                               400

                               300

                               200

                               100

                                  0
                                      FY 2000    FY 2001      FY 2002      FY 2003
        Significantly (Months) Late     24          32           41          103
        Several Weeks Late              65          43           27           36
        Days to Weeks Late             365         273          188          229
        In Local Funding Window        119         131           74           51
        Within Standard                176         213          163           90
            S

completed within the time that the USMS allows before additional resources
may be provided.

       From FY 2000 through FY 2003, the number of threats sent to the
ASU for assessment decreased by 30 percent, from 841 cases to 585
cases.33 Despite the reduced number of threats, the ASU completed fewer
assessments within the standard. In FY 2000 the ASU completed 176 cases
in less than the standard time, but in FY 2003 it completed only 90 cases
within the standard time. The number of cases in which the ASU’s
assessment was severely late also increased substantially. Specifically, the
number of cases in which ASU took several months or more to complete its
assessment more than quadrupled, from 24 cases in FY 2000 to 103 cases
in FY 2003.

      In examining the reasons for the USMS’s failure to meet established
timeframes, we found that the number of analysts that USMS has dedicated
to assessing threats has decreased since the office was established in 1996.
The ASU initially was staffed with six analysts, and the number of positions
was later reduced to five. When we reviewed the program, only four of the

       33   Although we found no recent studies of judicial reporting of threats, USMS
officials told us they believed threats declined, in part, because judges did not report all the
threats they received.
______________________________________________________________________________________
U.S. Department of Justice                                                               14
Office of the Inspector General
Evaluation and Inspections Division
five analyst positions were filled. The reduction in staff was compounded by
the fact that the analysts perform duties other than conducting threat
assessments. The ASU Chief told us that, at any given time, only “two or
three” of the four analysts are conducting threat assessments. The analysts
spend their remaining time assisting with fugitive cases and working on
special projects and reports. Although these other efforts are important, the
result is that fewer resources are available for assessing threats to the
judiciary.

        In response to USMS budget requests, Congress has repeatedly
criticized the USMS’s failure to hire employees to fill all of the USMS’s
authorized and funded positions. In response, the USMS told Congress
that, in conformance with the Attorney General’s direction to fight the war
on terrorism by focusing resources on front-line positions, it has held off on
filling headquarters positions except on a case-by-case basis.34
Nonetheless, a 2003 OIG audit noted that the USMS does not track where
excess funds are expended.35 The failure to hire employees to fill positions
and the unreconciled reallocation of salary dollars are particularly
significant in an organization as small as the ASU, where one position
represents 20 percent of the workforce.

       ASU’s “triage” system for threats does not ensure that the threats the
USMS rates as most serious are processed timely. In February 2003, the
USMS implemented a new practice under which the OST assigns a rating of
high, medium, or low to all threats before forwarding them to the ASU for
assessment. The ratings are assigned by an OST senior court security
inspector based on his or her expert opinion; there are no written criteria for
assigning the ratings. The ASU assesses all threats rated high first, followed
by all threats rated medium, and then all threats rated low on a first-
in/first-out basis.

      We found that the triage system has not ensured that all threats rated
“high” are processed in a timely manner. Data from the first eight months
of operation under the triage system (February 2003 through September
2003) show that 68 threats were rated “high” for assessment out of a total of
408 threats reported. Yet only 20 of the assessments (37 percent) were
completed within the standard time. Of the 48 assessments that took

       34 USMS responses to questions for the record submitted by Congressman Charles
H. Taylor, May 13, 2003.

       35  Department of Justice, Office of the Inspector General, Budget Execution in the
United States Marshals Service During Fiscal Years 2002 and 2003, Report No. 04-02,
October 2003.
______________________________________________________________________________________
U.S. Department of Justice                                                             15
Office of the Inspector General
Evaluation and Inspections Division
longer than the standard time, 30 took up to 10 days to complete, and 11
took from 10 days to as long as 47 days to complete.

       Moreover, because the formal assessment of threats initially
prioritized as “medium” or “low” is delayed, the triage system may have
negative effects on the threat assessment process. The lack of written
criteria for assigning ratings risks that some serious threats will be rated
“medium” or “low,” resulting in a delayed assessment. Also, one of the most
important factors considered in assessing a threat is determining whether
the person has made multiple threats and if the threatening behavior is
escalating. The USMS considers these threats to be more serious. If all
threats are not processed in a timely manner and in the order they are
received, the assessments may not identify that other threats by the same
person are pending, and the seriousness of the threat may not be accurately
determined.

The USMS’s Analysis of Threats Relies on an Outdated Analytical Tool

       The database that the USMS uses to perform the comparative
assessment on reported threats has not been updated since 1996 and
therefore lacks current data on threats (including those involving terrorism)
needed to reliably assess reported threats against the federal judiciary.
When the ASU conducts a threat assessment, it compares the available
information about the current threat and its initiator to information about
prior cases contained in the historical threat database. The USMS ceased
adding information on threats to the historical threat database in early
FY 1996 and began entering threat assessments into WIN. As of September
30, 2003, ASU records showed that a total of 8,694 threats had been
reported to the USMS since 1980. However, the historical threat database
does not contain any information on 4,973 of those threats that were
reported since 1996, including cases involving terrorism after September 11,
2001.

      The ASU stopped adding information into the historical threat
database because ISD decided that it would be more cost-effective to enter
the data into WIN than to update the DOS-based, historical threat database
program. In addition, according to the USMS, because many individuals
who make threats also have outstanding warrants, entering threat
information directly into the WIN system could speed the identification and
apprehension of these individuals.36

       36  USMS Memorandum from Assistant Director (ISD) to Deputy Director,
Assignment of Analytical Support Unit, March 11, 2002.
______________________________________________________________________________________
U.S. Department of Justice                                                         16
Office of the Inspector General
Evaluation and Inspections Division
       Our analysis of WIN data since June 1996 did not substantiate the
USMS’s reasoning. We found that only 19 percent (772 of 3,756) of the
individuals who made threats also had warrants issued for their arrest.
Those 772 warrants represented only about one-sixth of one percent of the
483,983 warrants that were entered into WIN since June 1996. Moreover,
the districts and the ASU cannot rely solely on WIN for threat information.
Although WIN can be used to collect and share some information regarding
threats to the federal judiciary, it was designed to support the USMS fugitive
program and has been modified to collect and process only some threat
information. For example, WIN provides the summary results of post-1996
threat assessments conducted by ASU but does not contain all of the threat
details that were used to conduct the assessment.

      While WIN was designed to systematically collect all relevant
categories of information on threats in a format that supports the use of the
information for future assessments, according to the ASU Chief, the USMS
has not added a comparative threat assessment capability to WIN as
originally planned. Therefore, although information on threats has been
entered into the WIN since FY 1996, the ASU continues to conduct the
comparative assessments on new threats using the outdated historical
threat database.

       The USMS continues to rely on the outdated historical threat
database to allocate resources. The USMS’s analysis of the historical threat
database showed that, of all threats received from 1980 to 1996, 91 percent
were “specious” (i.e., nothing further happened), 5 percent resulted in some
form of escalation (e.g., additional threats, stalking), and 4 percent resulted
in violence (e.g., vandalism of the judge’s property or worse). According to
Court Security Inspectors assigned to the OST, the USMS continues to
allocate resources, including conducting threat assessments and
implementing protective measures in response to threats, based on the
presumption that only one in ten threats will escalate or result in violence.
However, the extent to which the database is outdated casts serious doubt
on the validity of that presumption.

       In summary, our review showed that the USMS often fails to assess
reported threats within its standard time and relies on an outdated
assessment tool to assess threats to the federal judiciary. Without timely
assessments, the USMS cannot fully identify and assess serious threats to
judicial operations and personnel. Further, without any information on
recent terrorist-related threats in the historical threat database, the validity
of the ASU’s comparative assessments for judging the severity of threats
against the federal judiciary and identifying appropriate protective measures
______________________________________________________________________________________
U.S. Department of Justice                                                         17
Office of the Inspector General
Evaluation and Inspections Division
is questionable. The USMS’s failure to ensure that threat assessments are
both timely and based on current and complete data reduces the capability
of the USMS to adequately protect the federal judiciary.

The USMS Has Limited Capability to Collect and Assess Intelligence to
Identify Potential Threats to the Federal Judiciary

       We found several limitations that prevent the USMS from effectively
collecting and assessing intelligence from the districts and other sources,
such as the FBI’s JTTFs, to identify potential threats to the federal judiciary.
The USMS’s capability to collect and assess intelligence is limited by the
lack of a central information collection capability; internal prohibitions on
collecting information; incomplete participation in the FBI’s JTTFs;
insufficient security clearances; and inadequate secure communication
systems.

       These limitations persist, in part, because since September 11, 2001,
the USMS has failed to implement new authority granted by Congress in the
Patriot Act, and failed to act on internal studies to improve its information
collection and sharing capabilities.

       The USMS disbanded its centralized unit that collected, assessed, and
shared information on threats to the judiciary, and issued internal guidance
that limited information collection. Prior to 1994, the USMS had a formal
centralized intelligence collection and assessment program operated by its
Threat Analysis Division. However, during a 1994 reorganization of the
USMS headquarters, the Director eliminated the Threat Analysis Division.
Further, on April 5, 1996, the USMS Office of General Counsel (OGC) issued
an opinion that directed the USMS to limit intelligence collection (including
information in the databases used to track and assess threats) and threat
investigations relating to extremist groups. The 1996 OGC opinion was
based on the Attorney General Guidelines issued in 1983 which have been
superceded, and cautioned Deputy Marshals that they could be held
personally liable for collecting information not directly related to specific
threat investigations.37 After the 1996 OGC memorandum, the USMS
dismantled its remaining centralized intelligence capability by destroying all
intelligence files not directly related to specific threat investigations.



       37  The Attorney General’s Guidelines on General Crimes, Racketeering Enterprise
and Domestic Security/Terrorism Investigations (March 1983) described authorities and
activities related to criminal investigations. Although the Guidelines only mention the FBI,
they have been interpreted as applying to all DOJ criminal investigations.
______________________________________________________________________________________
U.S. Department of Justice                                                            18
Office of the Inspector General
Evaluation and Inspections Division
       The ISD Assistant Director told us that currently the USMS
headquarters’ only threat assessment capability resides with the ASU, but
that the ASU is still prohibited from collecting and sharing information not
related to specific reported threats. Moreover, even if the current OGC
limitations on intelligence collection were removed, the current ASU staff
could not provide a centralized information collection and sharing capability
because, as described previously, it is unable to meet its current threat
assessment workload.

       Because the USMS headquarters has no centralized capability to
collect and share information not related directly to a specific threat
investigation, it must rely on Deputy Marshals in the districts and assigned
to other Departmental intelligence operations (e.g., the BOP Sacramento
Intelligence Unit, DEA’s El Paso Intelligence Center, and the FBI’s JTTFs) to
collect and share information on potential threats to the federal judiciary. If
one of these Deputy Marshals learns of a potential threat to the judiciary, he
or she forwards that information to both OST and the appropriate districts.
While these actions have some value, the information is not made available
to all Deputy Marshals responsible for judicial security or systematically
assessed and retained to identify trends and emerging threats. More
importantly, we found that the current ad hoc efforts do not always provide
threat information to the responsible field offices. For example:

       In March 2003 the Deputy Marshal assigned to the Sacramento
       Intelligence Unit became aware of a threat made by an individual in
       Arizona against a judge in New York. The Deputy Marshal notified the
       Southern District of New York. However, the Arizona district, where
       the individual who made the threat resided, was not immediately
       notified due to an administrative oversight. The individual did not
       carry out his threat, but the delay hindered assessment and
       mitigation efforts and increased the risk that the judge would be
       harmed.

       The USMS’s participation in the JTTFs is limited. According to
October 2003 JTTF membership rosters provided by the FBI, the USMS has
assigned only 50 Deputy Marshals to represent it on 29 of the 56 FBI field
office JTTFs (6 of the Deputy Marshals were assigned by USMS
headquarters and 44 were assigned by districts). Moreover, only 25 of the
50 are full-time representatives. The other 25 Deputy Marshals assigned to
field office JTTFs, as well as the one Deputy Marshal assigned to represent
the USMS on the NJTTF, are part-time representatives.


______________________________________________________________________________________
U.S. Department of Justice                                                         19
Office of the Inspector General
Evaluation and Inspections Division
      The USMS had planned to increase JTTF participation by assigning
an additional 22 Deputy Marshals to the JTTFs, but was unable to do so.
For FY 2003, the USMS requested $2.3 million to fund 22 additional Deputy
Marshals to be assigned to field office JTTFs. Congress provided all of the
requested funds, but directed that 18 of the new Deputy Marshals be
assigned to “districts with the highest priority needs” at a cost of
$1.4 million.38 The USMS complied with the congressional direction
regarding the $1.4 million, but an FY 2003 OIG audit could not establish
where the USMS allocated the rest of the money.39

       The USMS JTTF representatives and their supervisors lack
appropriate security clearances. In addition to the absence of full-time
representatives on many JTTFs, the USMS’s ability to access and share
JTTF information on threats to the judiciary is also limited by a lack of
security clearances. The July 2001 Memorandum of Understanding
between the USMS and the FBI requires that Deputy Marshals assigned to a
JTTF – as well as their appropriate supervisory personnel – must have Top
Secret security clearances verified by the FBI to access JTTF intelligence.
However, our review indicated that not all USMS representatives have the
security clearances necessary for full access to JTTF intelligence. According
to an October 2003 Top Secret clearance roster provided by the USMS, only
33 of the 50 Deputy Marshals listed on FBI JTTF rosters had a Top Secret
security clearance.40

      The lack of appropriate security clearances is not limited to the USMS
representatives assigned to the JTTFs. While 92 of the 94 U.S. Marshals
have Top Secret clearances, the Chief Deputy Marshals in 22 districts did
not have the Top Secret Clearances required to supervise JTTF members or
receive or review classified information.41 Overall, the USMS Top Secret

        38 Senate Report 108-33. The Congressional direction to assign the new Deputies to

the “districts with the highest priority needs” did not preclude additional full time
participation in the JTTFs.

       39 Department of Justice, Office of the Inspector General, Budget Execution in the

United States Marshals Service During Fiscal Years 2002 and 2003, Report No. 04-02,
October 2003.

       40 USMS Human Resources Division, Top Secret Security Clearance Roster compiled
for OIG, dated October 22, 2003.

       41 Every district has a Chief Deputy Marshal who provides the overall day-to-day
supervision of the Deputy Marshals assigned to that district.

______________________________________________________________________________________
U.S. Department of Justice                                                         20
Office of the Inspector General
Evaluation and Inspections Division
clearance roster showed that only 876 of 4,761 USMS employees (17
percent), only 696 of 3,342 Deputy Marshals (16 percent), and only 26 of
106 of the recently assigned District and Circuit Court Security Inspectors
(25 percent) possess a Top Secret clearance. In response to our survey, 25
of 85 responding USMS districts (29 percent) reported that they did not
have any Deputy Marshals with a Top Secret clearance.

      Further, some intelligence information has additional restrictions and
requires a special authorization in addition to a Top Secret clearance for
access. As the Joint Committee on Select Intelligence Inquiry concluded,
“without [Sensitive Compartmented Information] clearances,
non-intelligence community agencies are often unable to access vital
counter-terrorism information.”42 However, few USMS personnel have the
additional authorizations to access Sensitive Compartmented Information.
As of June 2003, only 144 USMS employees (3 percent) were authorized to
access Sensitive Compartmented Information. Of those 144 individuals, 26
were assigned to just one district where a high-threat trial was underway.

       According to the Chairman of the USMS Executive Working Group
tasked by the Director to examine USMS intelligence capabilities, the
wide-spread lack of clearances at all levels represents a barrier to improving
intelligence collection and sharing. In the two cases we looked at, we found
that the USMS’s lack of effective participation in JTTFs negatively impacted
the USMS’s ability to provide appropriate security to the federal judiciary.

       One intelligence-sharing breakdown occurred during a JTTF
investigation of a terrorist cell. Arrests were imminent and, once the
suspected terrorists were arrested, the USMS would be responsible for
transporting and housing them, as well as for providing courtroom security.
However, the responsible USMS district (which did not have a representative
on the JTTF) was unaware of the investigation or the impending arrests
until a few hours before they took place. This short notice precluded
adequate planning for the extensive security measures needed to handle a
large number of suspected terrorist prisoners.

       The other case occurred during a high-threat trial that involved
individuals who were accused (and subsequently convicted) of providing
financial aid to terrorists. In that case, classified information that the
district later considered critical to trial security was not disclosed to the



       42  Statement of Eleanor Hill, Staff Director, Joint Inquiry Staff, to the Joint Select
Committee on Intelligence, October 1, 2002.
______________________________________________________________________________________
U.S. Department of Justice                                                                21
Office of the Inspector General
Evaluation and Inspections Division
USMS by the JTTF during the trial because the District’s part-time
representative to the JTTF did not have a Top Secret security clearance.

       The USMS lacks the secure systems needed for Deputy Marshals to
effectively share intelligence on threats to the judiciary. As of August 20,
2003, the USMS reported that only 51 of the 94 districts had the necessary
secure communications equipment to effectively share classified
information.43 In comparison, the U.S. Secret Service and the FBI indicated
that they have fully implemented secure communications systems for
sharing classified information and are working to further improve this
capability.44

       Further, threat information is contained in automated and manual
systems maintained by individual districts, the JSD, and the ISD. The
current systems do not interact to provide the USMS with a secure
electronic information system that it needs to enable Deputy Marshals to
collect and share threat information among all USMS districts. For
example, to test the utility of the current USMS system of records for
conducting threat investigations, we obtained information on two protective
services details that the USMS currently has underway in the Southern
District of New York. We found the information regarding the protective
services details in several places, including WIN; historical budget records
and operational plans from JSD manual records; current budget and
operations plans from the district; and classified material maintained by
JSD and ISD. A Deputy Marshal assessing a threat would be faced with the
need to collect information from a variety of sources.

       The USMS has taken only limited action to improve its information
collection and sharing capabilities after September 11, 2001. After
September 11, 2001, Congress passed the Patriot Act, which clarified the
authority of federal agencies to collect intelligence and law enforcement
information.45 Subsequently, the Attorney General Guidelines were revised
to support law enforcement agencies’ use of new powers relating to
information collection and criminal procedures to more aggressively pursue

     43 During this review, the USMS was contemplating plans to deploy secure

communications equipment to an additional 23 Districts.

        Targeted Violence Information-Sharing System (TAVISS) Feasibility Study,
       44

May 2002.

       45 Uniting and Strengthening America by Providing Appropriate Tools Required to
Intercept and Obstruct Terrorism Act of 2001 [Patriot Act], Public Law 107-56,
October 25, 2001.

______________________________________________________________________________________
U.S. Department of Justice                                                         22
Office of the Inspector General
Evaluation and Inspections Division
potential criminal activity especially as it relates to terrorism.46 However,
the USMS has not revised its internal guidance (i.e., the 1996 OGC opinion)
to improve the collection and sharing of information on threats to the federal
judiciary.

       In addition, internal USMS studies conducted after September 11,
2001, identified the need for better information sharing. In September
2001, the Deputy Director of the USMS directed the Assistant Director in
charge of the ISD to lead an Executive Working Group to examine the
USMS’s “capabilities with regard to the collection, analysis, maintenance,
and dissemination of information and/or intelligence related material that
impacts our criminal investigations and protective operations missions.”47
A White Paper prepared in February 2003 for the Executive Working Group
and other senior USMS staff described the limited USMS intelligence
capabilities and the need for a centralized intelligence capability and better
intelligence sharing, and concluded that the USMS “has no formal process
to assess and disseminate information…to prepare for threats or to…
participate fully in intelligence sharing.”

       A “Needs Assessment” prepared for the USMS Director in July 2002
identified a three-phase plan to catalog existing information resources,
identify new resources, and develop a centralized information sharing
program. The proposal envisioned a staff of 18. The program would collect
information from the districts, USMS representatives on JTTFs, and USMS
liaisons that would be assigned to the intelligence units of other agencies,
including the Central Intelligence Agency, the Foreign Terrorist Tracking
Task Force, the Secret Service Protective Intelligence Division, and others.
The key goal of the new USMS unit would be to “fuse” information from
across mission areas. To date, this program has not been implemented.

       In summary, as of October 2003, the USMS has not taken basic steps
to ensure that it has access to the information it needs to accomplish its
judicial protection mission. To meet its responsibility to the federal
judiciary, the USMS needs a centralized information sharing program to
collect and share intelligence in order prevent acts of violence. Currently,
two trial judges are under express death threats from terrorist groups, and
other trials involving similar terrorist groups are underway. Despite the
recognized importance of developing JTTF protective intelligence to support

       46The revised Attorney General’s Guidelines on General Crimes, Racketeering
Enterprise and Terrorism Enterprise Investigations, were issued on May 30, 2002.

       47   September 2001 Tasking Statement for the USMS Executive Working Group.

______________________________________________________________________________________
U.S. Department of Justice                                                         23
Office of the Inspector General
Evaluation and Inspections Division
the USMS mission, including the expressed interest of the Congress in the
USMS’s participation in the JTTFs, the USMS has not established complete
participation in all of the FBI’s JTTFs. Without a structured, centralized
intelligence process; the necessary Top Secret clearances; and the
technology to facilitate intelligence sharing, the USMS cannot effectively
access and use JTTF intelligence or other intelligence sources to identify
potential threats to the federal judiciary.




______________________________________________________________________________________
U.S. Department of Justice                                                         24
Office of the Inspector General
Evaluation and Inspections Division
       The USMS lacks adequate standards to guide the
       selection, adjustment, and termination of measures to
       protect the judiciary against assessed threats of varying
       risk (i.e., risk-based standards). In particular, current
       USMS policies provide no criteria to ensure that
       protective measures implemented on terrorist and other
       high-threat trials are appropriate to mitigate the
       assessed risks.     Also, current USMS policies on the
       application, duration, or termination of protective
       services details to guard threatened judges are outdated.
       Consequently, USMS districts select protective measures
       for high-threat trials and determine the extent and
       duration of protective services details on an ad hoc
       basis. The absence of risk-based standards results in
       inconsistent protection and prevents the USMS from
       effectively allocating resources among all assessed
       threats.


The USMS Lacks Adequate Risk-Based Standards for Determining
Protective Measures on Terrorist and Other High-Threat Trials

      The USMS Policy and Procedures Manual (Manual) provides limited
and outdated guidance for determining appropriate protective measures for
high-threat trials. The chapter of the Manual that contains guidance and
standards for judicial and court security, Volume X, has not been revised
since July 1, 1993, and does not address protective measures to be applied
when providing security on terrorist and other high-threat trials.48 For
example, ten U.S Marshals and Deputy Marshals that we interviewed noted
that the guidance in the Manual does not address many types of trials that
present significant risks to the judiciary, such as criminal cases involving
espionage, prosecutions of gang violence, and cases with cooperating
witnesses. Moreover, a significant defining issue in recent high-threat trials
− that the defendants are associated with international terrorist groups − is
not included.

       Our review of the Manual confirmed that it provides limited and
inadequate guidance on determining protective measures on high-threat
trials. For example:



       48  Some other parts of the Manual were revised in 1995.
______________________________________________________________________________________
U.S. Department of Justice                                                         25
Office of the Inspector General
Evaluation and Inspections Division
       •    To determine protective measures for trials, the Manual instructs
            Deputy Marshals to use several rudimentary “risk matrices” to
            categorize civil and criminal trials into risk levels according to the
            subject of the proceeding (e.g., bankruptcy, deportation, assault,
            narcotics), the stage of the proceeding (i.e., pre-trial, trial, post-
            trial), and the perceived risk associated with the trial participants.
            Based on the risk level derived from the matrices, the Manual
            directs the staffing that should be applied to the trial. Other than
            dictating the number of Deputy Marshals required, the Manual
            provides no guidance on protective measures for high-risk trials.

       •    For trials that the Manual defines as “sensitive,” the Manual
            instructs the U.S. Marshal to prepare a written Operational Plan
            that will describe the security measures to be implemented and the
            staffing that will be provided.49 However, the Manual provides no
            guidance and establishes no standards that the U.S. Marshal can
            use to select the protective measures that are the most appropriate
            and effective for the identified risks. Specifically, the Manual
            provides no guidance when to request support from the USMS’s
            Special Operations Group (SOG) or Hazardous Response Unit, and
            establishes no standards for the application of such protective
            measures as trace explosive detectors, armored cars, body armor,
            and enhanced prisoner restraints.50

      Almost half of the USMS districts we surveyed identified the protective
measures described above as valuable technology for ensuring judicial
security. However, in the absence of adequate guidance and risk-based
standards to ensure that appropriate protective measures are selected, the
U.S. Marshals cannot ensure that the protective measures chosen are
consistent with successful approaches applied in similar circumstances.
Consequently, we found that, although districts developed the Operational



       49 The Manual defines “sensitive” trials as those that require non-routine security

measures, such as trials with multiple defendants, defendants who are dangerous or may
attempt to escape, or where there is high media interest. The term “high-threat trial”
equates to “sensitive trial.”

       50  The Special Operations Group is a specially trained and equipped unit deployed
in high-risk law enforcement situations. USMS Policy Directive No. 99-17, May 24, 1999.
The Hazardous Response Unit is trained and equipped for chemical, biological, radiological,
nuclear, and explosive device response in relation to high-threat terrorist trials. USMS
responses to questions for the record submitted by Congressman Charles H. Taylor,
May 13, 2003.
______________________________________________________________________________________
U.S. Department of Justice                                                             26
Office of the Inspector General
Evaluation and Inspections Division
Plans required by the Manual, they did not consistently apply similar
protective measures in response to similar threats. For example:

       •   One district we visited used the SOG extensively to transport
           prisoners and as a rapid response force during a high-threat trial.
           Another district did not use the SOG at all for a similar high-threat
           trial. Neither district could provide any criteria to explain their
           decision to request (or not to request) that the SOG be deployed.

       •   The Manual states that personal electronic devices may be banned
           from the courthouse or the courtroom during some “sensitive”
           trials. However, after recent intelligence and media reports of
           terrorists using electronic devices as improvised bomb detonators,
           we found some USMS districts have worked with the Chief Judge
           of their districts to make the prohibition on electronic devices
           permanent while others have not.

       •   Another district we visited did not use its new “Itemiser3 Trace
           Explosive Detector” during a high-threat trial because the district
           was waiting for guidance from USMS headquarters on where to
           deploy the equipment (public or freight entrance), who should be
           screened, and what protective measures should be taken if
           suspected explosives are detected (e.g., retest for false positive or
           immediately evacuate the building).

       Although specific protective measures must be selected based on the
characteristics and risks of each individual trial or threat, the inconsistent
approaches used in the field were not readily apparent to the USMS because
it does not complete after-action reports on the protective measures taken.
Without effective and current standards, and routine after-action reports,
the USMS cannot identify inconsistent protections, needed improvements,
or successful protective measures for ensuring the security of the federal
judiciary.

      The lack of adequate standards for protective measures during high-
threat trials also prevents the USMS from ensuring that the districts are
consistently provided additional resources to support appropriate
protections. The USMS could not identify how many high-threat trials have
taken place because USMS headquarters (specifically the JSD) only keeps
records on high-threat trials for which it provides additional funding. The
JSD does not track requests that are rejected, and USMS districts are not
required to track or report the number of high-threat trials that occur.

______________________________________________________________________________________
U.S. Department of Justice                                                         27
Office of the Inspector General
Evaluation and Inspections Division
        In our survey, we requested that each USMS district estimate the
percentage of trials that it perceived as involving increased risk. The
responses we received (from 85 districts) indicated that about 20 percent of
trials involved a “substantial potential for violence.” According to the
AOUSC, 12,817 trials were completed in U.S. District Courts in FY 2002.51
Extrapolating from the districts’ responses to our survey, the number of
trials with “substantial” risks could have exceeded 2,400. In contrast, JSD
records from the last three fiscal years show that JSD provided support for
an average of only 139 trials each year (Table 4). Without adequate
risk-based standards, and without after-action reports to evaluate and
improve its protection of the judiciary, the USMS cannot effectively ensure
that the most significant risks are addressed and that its resources are used
appropriately.



                   Table 4 – JSD Funded High-Threat Trials
                 Fiscal Year                  Number of “High-Threat
                                                 Trials” Funded
                  2001                                 139
                  2002                                 117
                  2003                                 162
        Source: JSD


USMS Guidance on Protective Services Details is Outdated

      When a protective investigation indicates that an individual may carry
out a threat, and interventions such as the arrest or commitment of the
individual for psychiatric observation are not feasible, the USMS district can
implement increased personal protective measures to protect the threatened
judge away from the court building. The USMS refers to these off-site
protective measures, which can range from an escort to and from work to
around-the-clock protection for the judge and his family, as “protective
services details.”

      The USMS’s guidance for protective services details is contained in its
Policy and Procedures Manual, Volume X, January 1993, and in USMS
Policy Directive 99-07, January 7, 1999, Protective Investigations.



       51  AOUSC FY 2002 Annual Report, Table C-7, U.S. District Courts – Civil and
Criminal Trials Completed.
______________________________________________________________________________________
U.S. Department of Justice                                                          28
Office of the Inspector General
Evaluation and Inspections Division
The Manual and Policy Directive are supplemented by The U.S. Marshals
Service Protective Investigations Program, A Procedural Handbook for Threat
Investigators and Supervisors, January 1999. Although our survey of USMS
districts indicated that the use of protective services details has increased
since September 11, 2001, the USMS guidance has not been updated.

       In FY 2002, JSD provided resources for 21 protective services details,
several of which included around-the-clock protection.52 The JSD only
tracks protective services details for which it provides resources or expert
advice. It does not track the total number of protective services details that
are implemented throughout the USMS. In our survey, 71 of the 85
districts (84 percent) reported that they had used protective services details.
Of those 71 districts, 14 (20 percent) reported that they had increased the
use of protective services details since September 11, 2001. Despite the
reported increasing use, we found that the USMS guidance on protective
details has not been revised and contains outdated information. For
example:

       •     Neither the Manual nor the Policy address the use of technology
             during protective services details. For example, the U.S. Marshals
             and Deputy Marshals we interviewed and surveyed indicated that
             equipment that has become more widely available in recent years,
             such as cellular phones, car alarms, and home alarms, might be
             effective for improving off-site judicial security.

       •     The Manual states that protective services details will be
             terminated at the protectee’s request or if the Chief of the Court
             Security Division with the assistance of the Threat Analysis
             Division determines the protectee is no longer in danger. This
             standard does not take into account threats by terrorists and
             similar groups with worldwide reach and a long-term dedication to
             revenge. Such threats cannot be identified and assessed by the
             USMS alone. Instead, the threat posed by terrorist groups may
             require long-running personal protective measures, based on
             classified intelligence, to safeguard the judges and other
             participants from reprisal long after the actual trial has ended.

       •     The Manual has not been updated to reflect that the Threat
             Analysis Division was disbanded in 1994, and that the Division’s
             mission was not reassigned to any other office. We confirmed that

       52   Judicial Security Division 2002 Annual Report.

______________________________________________________________________________________
U.S. Department of Justice                                                         29
Office of the Inspector General
Evaluation and Inspections Division
            the functions and authority of the Threat Analysis Division to
            “determine if the [protective services] detail is to be continued or
            expanded” have not been reassigned.53

       As with the application of security measures for high-threat trials, in
the absence of clear standards, the districts we visited did not use a
consistent approach for deciding when to implement protective services
details or its makeup. The districts we visited could identify no specific
criteria for determining the nature and extent of the protections they
employed in each case. We also found that two individual protective
services details on different judges were maintained while they were both
inside the same secure courthouse, unnecessarily duplicating the protective
coverage.




       53  We also found that the Offsite Security Booklet for Judicial Officers (USMS
Pub. No. 94, March 1999), currently provided to members of the federal judiciary to explain
the USMS’s judicial protection procedures, contains the same out-of-date information
regarding protective services details. The booklet informs members of the federal judiciary
that the “U.S. Marshals Service Threat Analysis Division will verify all facts and determine if
the [protective] detail is to be continued or expanded.”
______________________________________________________________________________________
U.S. Department of Justice                                                              30
Office of the Inspector General
Evaluation and Inspections Division
                  CONCLUSIONS AND RECOMMENDATIONS


      Since September 11, 2001, the USMS has placed greater emphasis on
judicial security, but it faces significant challenges in its ability to assess
threats and determine appropriate measures to protect members of the
federal judiciary. Our review found that that the USMS fails to assess the
majority of reported threats against the judiciary in a timely manner. Since
FY 2000, over 70 percent of the assessments were not completed within the
USMS’s required timeframe. Additionally, over 55 percent were not
completed within the time that USMS allows before additional resources
may be provided, and almost 15 percent took weeks to months to complete.
The lack of timely assessments impacts the districts ability to determine if
appropriate investigative and protective measures have been taken. Also,
no new threat information has been entered into the historical threat
database used to assess new threats since 1996. The lack of current threat
information in the database undermines the validity of new assessments
both for determining appropriate protective measures and for allocating
resources.

       Further, the USMS has limited capability to collect and share
intelligence on potential threats to the judiciary from USMS districts, the
FBI’s JTTFs, and other sources. While the USMS has taken some steps
since September 11, 2001, to evaluate its capability to collect and share
threat information, it continues to lack an effective intelligence program
designed to collect, analyze, and disseminate intelligence related to
high-threat trials and threats to the federal judiciary. Without a structured,
centralized intelligence program, the necessary Top Secret clearances, and
the technology needed to facilitate information sharing, the USMS’s
capability to share and effectively use information obtained from internal
sources and external entities to protect the federal judiciary is limited.

       The USMS also needs current risk-based standards for determining
the appropriate protective measures that should be applied to protect the
judiciary during high-threat trials and protective services details.
Risk-based standards also are needed to more effectively identify those
high-threat trials for which the districts should receive additional resources.
Without current risk-based standards for high-threat trials and protective
services details, the USMS cannot effectively ensure that the most
significant risks to members of the federal judiciary are addressed and that
resources are used appropriately. Finally, the USMS does not complete
after-action reports on high-threat trials and protective services details, and

______________________________________________________________________________________
U.S. Department of Justice                                                         31
Office of the Inspector General
Evaluation and Inspections Division
so cannot determine if protective measures were appropriate, and cannot
effectively evaluate and improve its protection of the federal judiciary.

       The USMS has a responsibility to meet the increasing security needs
of the federal judiciary. Congress has supported security improvements by
substantially increasing funding for the USMS judicial security mission,
even though it has expressed concern that the USMS has not given
sufficient attention to the judicial security program. Our review concluded
that, to successfully meet the strategic goal of the Department to protect the
judiciary, the USMS must improve its ability to assess threats in an
accurate and timely manner, and develop a proactive approach to collecting
and sharing the information necessary to meet increasing security
challenges.

Recommendations

       To improve the USMS’s capacity to carry out its primary mission
of protecting the federal judiciary, we recommend that the USMS take
the following actions:

       1. Ensure that all threats to the judiciary are assessed within
          established timeframes.

       2. Update the historical threat database or develop a new database to
          perform comparative assessments.

       3. Assign full-time representatives to all 56 FBI field office JTTFs and
          ensure effective USMS liaison with intelligence agencies (e.g., the
          U.S. Secret Service’s National Threat Assessment Center, the
          Central Intelligence Agency, and the National Security Agency).

       4. Create a centralized capability to identify, collect, analyze, and
          share intelligence with USMS districts, as well as with the USMS
          JTTF representatives and other intelligence liaisons.

       5. Require that Chief Deputy Marshals and USMS JTTF
          representatives have Top Secret clearances, and ensure that each
          district has secure communication equipment.

       6. Revise the 1993 Judicial and Court Security Manual and the 1999
          Offsite Security Booklet for Judicial Officers to establish risk-based
          standards and require after-action reports for high-threat trials
          and protective details.
______________________________________________________________________________________
U.S. Department of Justice                                                         32
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX I: USMS JUDICIAL SECURITY IMPROVEMENTS




     The following security enhancements have been placed into effect post
9/11 by the Judicial Security Division:


       Operation Support Team:

       ·      Added one additional Senior Inspector to the Duty Desk.

       ·      Discontinued Level one security for judicial conferences (Levels 2
              through 4 in use).

       ·      Conducted two Protective Investigations Training sessions one in
              FY 2002 and one in FY 2003.

       ·      All federal courthouses have been operating at Security Level 3 or
              higher since September 11th.

       ·      105 new District/Circuit Court Security Inspectors have been
              hired and trained.

       ·      Arrangements were made with the U.S. military to provide
              emergency evacuation of federal judges from judicial conferences
              (and potentially other scenarios).

       Judicial Protective Services:

       ·      Rapid staffing of 358 Temporary CSO positions nationwide
              following the traumatic event of September 11th. These positions
              continue to be programmed for funding.

       ·      Directed the purchase and enhancement of protective vests for all
              CSOs.

       ·      Developed an on-line Internet application of the CSO Resource Call
______________________________________________________________________________________
U.S Department of Justice                                                          33
Office of the Inspector General
Evaluation and Inspections Division
              (budget request), reducing the number of hours and paper
              associated with calculating CSO staffing resource requirements,
              both on the district and headquarters levels.

       ·      Post September 11th, 577 CSOs have been trained.

       ·      Coordinated the finalization of the Memorandum of Understanding
              (MOU) between the Administrative Office of the U.S. Courts and
              the USMS, regarding the staffing of the new 105 District/Circuit
              Court Security Inspectors, to include a desktop reference center
              through the intranet to provide field operations guidance and
              program policy.

       Judicial Security Systems:

       ·      Procured 311 state-of-the-art x-ray machines, each including
              Threat Image Projection software.

       ·      Procured and deployed 175 trace explosive detectors (Itemiser3) at
              primary courthouses nationwide. Arranged for initial on-site
              training of U.S. Marshals Service personnel and Court Security
              Officers (CSO).

       ·      Accelerated by one year the upgrade of all CSO radio equipment to
              the new national standard for digital, encryption-capable units.

       ·      Designed and procured construction and security equipment
              installation services for upgrades to courthouse perimeters at 141
              sites.




______________________________________________________________________________________
U.S Department of Justice                                                          34
Office of the Inspector General
Evaluation and Inspections Division
                  APPENDIX II: THE USMS’S RESPONSE




______________________________________________________________________________________
U.S Department of Justice                                                          35
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S Department of Justice                                                          36
Office of the Inspector General
Evaluation and Inspections Division
                           Response to Draft Report A-2003-006
              Review of the United States Marshals Service Judicial Security Process

INTRODUCTION:

        Judicial Security has been the highest priority of the U.S. Marshals Service (USMS) for
nearly 215 years. During the years leading up to the tragic events of 9/11, the USMS successfully
secured thousands of high risk trials involving foreign and domestic terrorists, drug king pins,
Mafia bosses, outlaw motorcycle gangs, and other defendants with long histories of violence.
During this same period, the USMS successfully managed numerous trials of high profile public
figures whose cases created their own unique set of security risks. None of these trials were
disrupted and none of the court family involved were injured.

         In spite of this impressive record of success, the USMS renewed and strengthened its
commitment to protecting the Judiciary following 9/11. Essentially all management initiatives
since 9/11 were designed to enhance an already strong Judicial Security program. These
initiatives often taxed the USMS's resources and required the direct participation of hundreds of
managers and employees at all levels of the organization. While some of the these
accomplishments are appended to the draft report, many are omitted. Some significant examples
include:

   •   Since September 11th, 807 Deputy U.S. Marshals (GS-082) have been hired and trained.
       The primary responsibility of these employees is Judicial Security. This initiative has
       been the largest USMS recruitment and training drive in more than 40 years. In addition
       to greatly enhancing the USMS Judicial Security program, this initiative resulted in the
       lowest overall vacancy rate in more than a decade. By the end of FY -2003 the USMS
       was at 99 per cent of its position ceiling.

   •   Since September 11th, more than 800 Automated External Defibrillators have been
       deployed in 432 judicial facilities and approximately 300 USMS employees have been
       trained in their use.

   •   Since September 11th, approximately 100 USMS employees have been trained as threat
       investigators. The USMS also established a cadre of highly trained employees who can
       respond to virtually any chemical, biological, radiological, or explosive threat. They have
       the training and specialized equipment to detect and mitigate such threats.

   •   Since September 11th the entire Court Security Officer workforce of more than 4000 has
       been equipped with and trained on the use of high capacity Glock semi-automatic
       handguns.

______________________________________________________________________________________
U.S Department of Justice                                                          37
Office of the Inspector General
Evaluation and Inspections Division
         Accomplishments like these have further enhanced the Judicial Security program's
reputation as one of the best in the world. We are currently providing Judicial Security Training
to hundreds of Colombian nationals and may soon be called upon to provide this training to other
countries as well. In addition, the USMS regularly conducts Judicial Security training for state
and local law enforcement agencies at the Federal Law Enforcement Training Center (FLETC)
in Glynco, Georgia. There is usually a waiting list of state and local officers who want to attend
this training.

       DRAFT REPORT OVERVIEW:

        The draft report is not required to include all the significant Judicial Security
accomplishments, nor is it required to provide complete context for its comments and
recommendations. Nonetheless, the USMS believes context of the draft report leaves an
inaccurate, or at least, incomplete picture. This is further compounded by the use of anecdotal
and/or incomplete information. While the draft report contains many examples of this deficiency,
a brief sampling illustrates the problem:

       Beginning on the third line of the Executive Summary, the draft report says:

         "No federal judges have been assassinated since 1989, but two federal judges
         have been assaulted in the last three years, and the USMS receives almost 700
         threats against members of the judiciary each year."

        The USMS believes that this statement totally misrepresents the effectiveness of its
Judicial Security program. While a single assault or assassination is unacceptable, the full picture
actually supports, rather than questions, the USMS' s capabilities. In the 215 year history of the
Federal Judiciary, four judges have been assassinated. The two most recent assassinations
occurred in 1988 and 1989. Neither of the judges had been threatened by their assassins and the
murders occurred at their homes. The third most recent assassination occurred in 1975. In that
case, the Judge was killed after he decided to terminate the security arrangements that had been
put in place by the USMS. In none of these cases were the alleged USMS shortcomings
mentioned in the draft report the causation factor.

        Since September 11th, the USMS has produced prisoners, many of whom were extremely
violent, before judges and magistrates over one million times. During this staggering number of
occasions when the USMS could have failed in its obligation to protect the judiciary, no judge
was ever injured. In addition, the USMS believes that one of the two incidents mentioned in the
draft report was actually a random street robbery that had nothing to do with the judge's identity
or duties.


______________________________________________________________________________________
U.S Department of Justice                                                          38
Office of the Inspector General
Evaluation and Inspections Division
       Further the Executive Summary states,

           "Since fiscal year (FY) 2001, Congress has increased funding for judicial
           security by about 50 percent and authorized the USMS to hire 106 new Court
           Security Inspectors. However, Congress has expressed concern that ''as the
           program has grown sufficient attention has not been provided to program and
           budget administration."

        The draft report never fully explains what the concern actually was and whether or not it
was validated. In addition, since the draft report focus is solely on the USMS's ability to analyze
threats and its ability to protect the judiciary, a reader could easily assume that Congress's
concern was related. First, Congress was concerned that the USMS was not using Judicial
Security funding as it had been "earmarked" in the appropriation. A review by the Department of
Justice Office of the Inspector General failed to find a single case where the USMS spent these
funds other than as Congress intended.

        Second, none of the funds appropriated by Congress were "earmarked" for positions to
collect or analyze intelligence. If the USMS had diverted funds for this purpose it would have
ignored the intent of Congress and violated the well established re-programming requirements.

        On page 24, paragraph 3, of the draft report, it says "two trial judges are under express
death threats from terrorists groups." Given the repeated allegations of shortcomings in the
USMS's ability to analyze threats and protect the judiciary, this is an extremely serious
statement. First, the USMS has no information that any judge is under such a threat. Second,
those judges who are at increased risk as a result of their participation in terrorist trials have the
highest levels of security possible. In fact, their security arrangements are comparable in many
ways to those provided to other government officials requiring protection. In some cases these
measures are extended to family members. Due to the security sensitivity of these cases, it is not
possible to provide more detailed information in this forum.

       On page 14, the summary states:

           "The USMS's shortcomings in quickly and effectively assessing threats,
           including those associated with terrorist and other high-threat trials, increase
           the risk that members of the federal judiciary may not be protected."

         Once again, given the overall tenor of the draft report, this is a very serious observation.
ill addition, on page 29, the draft report estimates that more than 2,400 trials were held in an
environment of "substantial" risk during Fiscal Year 2002 and that ". . . the USMS cannot
effectively ensure that the most significant risks are addressed and that its resources are used
______________________________________________________________________________________
U.S Department of Justice                                                          39
Office of the Inspector General
Evaluation and Inspections Division
appropriately." However, the draft report does not mention that no trial has been disrupted and
no judge, juror, witness, or prosecutor, has been injured since September 11th. Given these facts,
it is not clear upon what information these statements in the draft report are made.

        The most troubling example is the summary at the top of page 26. It suggests that the
USMS Judicial Protection techniques are not "adequate" or "appropriate." It further alleges that
"outdated" policies cause protective measure decisions to be made in an "ad hoc" and
"inconsistent" manner. Finally, it tells the reader that the USMS is not able to "effectively
allocate resources among all threats." According to the draft report, these USMS deficiencies are
primarily due to older policies and a lack of risk-based standards that can be used to determine
security requirements and resource allocations. These statements are made without a single
example of when these alleged inadequacies resulted in a trial being disrupted or a member of
the judicial family being injured.

        The summary and narrative that continues through page 31 fail to demonstrate an even
basic understanding of how the USMS Judicial Security process works. The requirements for
every high threat trial are determined on a case-by-case basis after considering all available
information about the case, the instructions from the trial judge, physical characteristics of the
courthouse and available resources. Local and/or national Judicial Security specialists and
managers develop an operational plan that is tailored specifically to the trial at hand. After
sharing the plan with the trial judge and the prosecutor, it is modified as necessary. As the trial
unfolds, the operational plan is frequently amended to meet changing conditions. The plans are
implemented by personnel who have received specialized training and who utilize the latest in
high tech security equipment.

        This section of the draft report can also leave the impression that some high-risk trials go
without the necessary resources, while resources are wasted on others. The draft report does not
mention that 94 per cent of all requests for special assignment resources are approved, nor does it
provide any examples of where resource decisions caused disruption or injury. In addition, the
draft report provides no factual information or expert analysis of the risks involved to support the
statement that "two different protective service details on different judges were maintained while
they were both inside the secure courthouse unnecessarily duplicating the protective coverage."

        RECOMMENDATION 1: Ensure that all threats to the judiciary are assessed within
established time frames.

       USMS Comments:

       The USMS agrees that all threats should be assessed according to policy. However, it
appears from the narrative supporting this and other recommendations in the draft report that the
process through which the USMS responds to potential threats was not fully understood. As a
______________________________________________________________________________________
U.S Department of Justice                                                          40
Office of the Inspector General
Evaluation and Inspections Division
result, the following general description is provided to correct any misunderstandings and clarify
the record.

         It is the policy of the USMS to encourage all members of the judicial family and their
staffs to report any inappropriate communications (IC) immediately. While the USMS believes
that this advice is generally followed, it obviously cannot force compliance. When a district is
notified of an IC, a trained district threat investigator conducts an immediate assessment to
determine if the IC constitutes an imminent and viable threat.

        If there is any reason to believe that the IC constitutes a viable threat, district staff, based
on their specialized security training and experience, can immediately implement whatever
protective measures they deem necessary to mitigate the threat. Protective measures can include
every option up to and including XXXXXXXXXXXXXXXXXXXX for the protectee and
his/her family. The district can implement these measures for XXXXXXXX without approval
from Headquarters and without concern for long-term funding.

        Concurrently, the district notifies the Operations Support Team (OST) at Headquarters of
the IC and of what steps it has taken to mitigate any potential threats. The district may also alert
the FBI of the potential need for a criminal investigation. At this point. the OST determines
whether or not to send the IC to the Analytical Support Unit (ASU) for further analysis. If the
ASU conducts an analysis. it becomes a factor considered by the OST and the district in
determining what steps should be taken next. Further actions may include canceling or increasing
protective measures, initiating a full scale protective investigation, seeking court orders
governing the conduct of the trial, and determining if the district will require additional
resources. It should be noted that if a full scale protective investigation is initiated, it could take
months to complete due to its complexity.

       We also stress that both the district and the OST personnel have the training, experience,
and authority to implement protective measures without a completed analysis from the ASU. In
addition, there is nothing in USMS policy or practice to suggest that protective measures would
ever be delayed while awaiting the completion of an ASU analysis. Once protective measures
have been put in place (XXXXXXXXXXXXXXXXXXXXXXX), they are never removed
without first discussing the risk level with the protectee and a thorough review by the OST.

        USMS Corrective Action:

       The USMS will be revising its policy on time frames for the ASU to complete
assessments. The new policy will establish criteria that categorize requests according to urgency.
Once the policy is implemented, adherence to the time frames will be made a factor in the annual
performance evaluations of the ASU staff. The USMS estimates that the new policy will be

______________________________________________________________________________________
U.S Department of Justice                                                          41
Office of the Inspector General
Evaluation and Inspections Division
implemented by the end of August 2004. The USMS will also review the workload of the ASU
and will request additional resources during the FY-2006 budget process if necessary.

       RECOMMENDATION 2: Update the historical threat database or develop a new
database to perform comparative assessments.

       USMS Comments:

        The USMS agrees that the threat database should have been updated. In addition, the
USMS believes that the threat database is a valuable part of the overall threat assessment and
response process. However, the USMS believes that the draft report greatly overstates the role of
the database and adverse impact of not having it current.

        As mentioned above, a decision to implement security measures is made before the ASU
database is used. The analysis provided by the ASU is only one factor used by Judicial Security
specialists in the OST and the districts to determine the level and potential duration of security.
The ASU analysis itself does not direct whether security should be applied or what the security
should be. These decisions are made by professionals based on their experience, training, and
other factors such as the desires and circumstance surrounding the protectees.

        In addition, the USMS recently reviewed cases with known outcomes for the period of
1997 through 2003. They were compared with the database of known outcomes that was last
updated in 1996. The results showed the level of validity remains relatively high. The percentage
results were (1996 data base listed first): specious 97.1/91; enhanced 6.4/5: and violent 2.2/4.

       USMS Corrective Action:

      A requirements analysis on updating the database is underway. It should be completed by
March 15,2004. Once completed, the cost and time to complete the project will be determined.

       RECOMMENDATION 3: Assign USMS representatives to all 56 FBI field office
JTTF's and ensure effective liaison with intelligence agencies (e.g., the U.S. Secret Service
National Threat Assessment Center, the Central Intelligence Agency, and the National Security
Agency.

       USMS Comments:

    The USMS agrees that having a full time representative at all JTTF's is desirable. It should be
noted that since September 11th, it has been able to increase the number of employees assigned
to the task forces from less than ten (10) to forty-nine (49). This has been done without the

______________________________________________________________________________________
U.S Department of Justice                                                          42
Office of the Inspector General
Evaluation and Inspections Division
appropriation of positions specifically for this purpose. In addition, the draft report does not
mention that the USMS:

   •   Chief of Intelligence Operations is a member of the FBI SIOC;

   •   Has assigned an employee of the Investigative Services Division to the CIA;

   •   Is working with the U.S. Capitol Police, Department of State Office of Diplomatic
       Security, and U.S. Secret Service National Threat Assessment Center to develop a
       Targeted Violence Information Sharing System.

   •   Has active and ongoing relationships with the NSA, NRO, NIMA, DOD Criminal
       Investigations Task Force, and the Law Enforcement Working Group of the Intelligence
       Community:

       USMS Corrective Action:

        The USMS will seek additional positions in the FY 2006 budget to station at least one
full-time employee at each of the FBI JTTFs.

        RECOMMENDATION 4: Create a centralized capability to identify, collect, analyze
and share intelligence with USMS districts, as well as the USMS JTTF representatives and other
intelligence liaisons.

       USMS Comments:

        The USMS agrees with this recommendation and prior to the review had already created
an Office of Intelligence. A senior GS-15 Criminal Investigator with extensive experience in
Judicial Security and as a U.S. Marshal and Chief Deputy U.S. Marshal has been designated as
the Chief of this new office.

       USMS Corrective Action:

        The USMS will be seeking the resources needed to fully staff the Office of Intelligence
as part of the FY 2006 budget process. In the meantime, the USMS will explore ways to provide
additional staffing to the office on a temporary duty basis.

       RECOMMENDATION 5: Require that all Chief Deputy U.S. Marshals and USMS
JTTF representatives have Top Secret clearances and that each district has secure
communications equipment.

______________________________________________________________________________________
U.S Department of Justice                                                          43
Office of the Inspector General
Evaluation and Inspections Division
       USMS Comments:

        While the USMS agrees with this recommendation, it is another example of where the
draft report understates the efforts of the USMS. Prior to September 11th, only 889 employees
held Secret or higher clearance. Currently 2,185 employees hold a Secret clearance or higher.
This includes 94 U.S. Marshals and 77 Chief Deputies who hold a Top Secret Clearance. The
remaining 14 Chief Deputies are being processed for Top Secret clearances (three Chief Deputy
positions are vacant at this time). Of the 49 USMS employees assigned to JTTFs, 42 have Top
Secret or Interim Top Secret Clearances. It is obvious by the progress made since September
11th that the USMS understands the importance of security clearances and is moving
aggressively to ensure that all employees are appropriately cleared.

       At the time the draft report was being compiled, it was well known that the USMS was
committed to providing secure telephone communications equipment. Proof that this initiative
was well underway is the fact that sixty three districts now have secure communication
capability and that STE equipment for the remaining districts is on order. It is also important to
point out that all USMS districts have had secure radio communication capability since that
equipment first became available. Finally, the USMS has had an aggressive Operations Security
(OpSec) program in place since 1997.

       USMS Corrective Actions:

        The remaining Chief Deputy Marshals and JTTF representatives will have Top Secret
clearances within 30 days of completion of their OPM background investigations. Newly
appointed Chief Deputy Marshals and JTTF representatives will have background investigations
initiated within 15 days of appointment, and Interim Top Secret clearances within 30 days of
appointment. The remaining STE units which were ordered from the NSA Contract are
scheduled to arrive by the end of June 2004.

        RECOMMENDATION 6: Revise the 1993 Judicial and Court Security Manual and the
1999 Offsite Security Booklet for Judicial Officers to establish risk- based standards and require
after-action reports for high threat- trials and protective details.

       USMS Comments:

        While the USMS agrees with this recommendation, it is important to note that the basic
information and guidance in both the Manual and the Booklet are still sound. There is nothing in
either document that would jeopardize security if followed. In addition, the ongoing Judicial
Security training that is provided to all law enforcement personnel during Basic, Advanced,
Specialized and Supervisory/Management classes is regularly reviewed and updated as
necessary. It should also be noted that this training is supplemented by ongoing meetings,
______________________________________________________________________________________
U.S Department of Justice                                                          44
Office of the Inspector General
Evaluation and Inspections Division
conferences, operational bulletins, and threat advisories which transmit the very latest
intelligence and guidance on Judicial Security. Finally, while after action reports are important,
major high threat trials and protective details are closely monitored or supervised by senior
Criminal Investigators assigned to either the Judicial Security or Investigative Services
Divisions. Therefore, lessons learned are not lost.

       USMS Corrective Actions:

        The USMS has recently completed a new protocol for conducting judicial threat
assessments and has developed risk-based criteria to be used when planning high-risk trials,
protective details, and threat investigations. They have been posted on the USMS intranet web
site and copies are attached to this response. The Manual, Booklet, and after action-report
requirements will be completed by the end of August 2004.

       CONCLUSION:

        In spite of its impressive record, the USMS is committed to the ongoing evaluation and
improvement of the Judicial Security program. The USMS meets regularly with members of the
Judicial Conference of the United States, the Administrative Office of U.S. Courts, the General
Services Administration, and the U.S. Postal Service on matters of facility and judicial security.
U.S. Marshals are required to meet regularly with their local judicial security committees and
those judges assigned special security responsibilities. In addition to regular meetings, the
Marshals are directed by USMS headquarters to convene special security meetings whenever
threat information so justifies. Soon, each U.S. Marshal will be tasked to work with members of
the local judicial family to develop individual Continuation of Operation Plans (COOP) as part
of the government-wide Continuity of Government (COG) initiative. The USMS will continue to
use all opportunities to enhance its Judicial Security capabilities.




______________________________________________________________________________________
U.S Department of Justice                                                          45
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX III: THE OIG’S ANALYSIS OF THE USMS’S
                          RESPONSE


      On December 30, 2003, the Office of the Inspector General (OIG) sent
copies of the draft report to the United States Marshals Service (USMS) with a
request for written comments. The USMS responded to us in a memorandum
dated February 4, 2004.

The USMS Response

       The USMS’s general concerns with our findings are its belief that we did
not provide sufficient information about the USMS’s efforts since September
11, 2001, to protect the Judiciary, and that some information presented in the
report was inaccurate or incomplete. The USMS claims that the OIG failed “to
demonstrate an even basic understanding of how the USMS Judicial Security
process works” and misrepresents the effectiveness of the Judicial Security
Program. Our disagreement with that statement is explained in the analysis
that follows. Moreover, we note that although the USMS expressed concerns
about some of the report’s findings, it concurred with all six of the
recommendations and agreed to implement them. Our detailed analysis of the
USMS’s response to our report and recommendations follows.

USMS’s Efforts Since September 11, 2001

      The USMS states that its highest priority is judicial security, and during
the years before September 11, 2001, it “successfully secured thousands of
high risk trials.” The USMS states that after September 11, 2001, it “renewed
and strengthened its commitment to protecting the Judiciary,” and
implemented numerous initiatives “to enhance an already strong Judicial
Security program,” which the USMS claims the OIG report does not
acknowledge. The USMS provided four examples of its accomplishments,
including the hiring of 807 new Deputy Marshals, the training of approximately
100 employees as threat investigators, the deployment of over 800 Automated
External Defibrillators, and the purchase of new high capacity firearms for
more than 4,000 Court Security Officers.



______________________________________________________________________________________
U.S Department of Justice                                                          46
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. At the initiation of this review, we requested that the
USMS provide a list of judicial security improvements since September 11,
2001, so that we could evaluate the improvements during our review. On June
13, 2003, the USMS provided a minimal list, consisting primarily of generic
building security improvements implemented government-wide in the months
subsequent to the September 11 terrorist attacks (Appendix A). No additional
information of this nature was provided during our review until the February 4,
2004, USMS response to the draft report. Consequently, we did not have an
opportunity to examine some of the post-September 11, 2001, efforts the USMS
now cites, and we did not validate the accuracy of the new information or its
relevance to improving the capability of the Judicial Security Program.
However, the USMS’s new claims about increased staff and equipment do not
undermine the core criticisms our review made about the operation of the
Judicial Security Program.

Inaccurate or Incomplete Information

       The USMS also asserts that the report misrepresents the effectiveness of
the USMS Judicial Security Program because it does not acknowledge the
numerous trials that the USMS has successfully protected. The USMS states
that “the draft report leaves an inaccurate, or at least, incomplete picture,” and
uses “anecdotal and/or incomplete information.” The USMS cites four
examples of information from the report that it considers to be inaccurate or
incomplete.

      1. The USMS believes that the OIG report incorrectly relied on two
recent assaults on federal judges to question the effectiveness of its Judicial
Security Program. The response states that “the USMS believes that one of the
two incidents mentioned in the draft report was actually a random street
robbery that had nothing to do with the judge’s identity or duties.”

      OIG Analysis. The USMS’s statement that one of the assaults we cited
was a random street robbery is incorrect. The two assaults described in our
report were cited in “The Attorney General’s 2001 Performance Report,
Strategic Goal Seven: Protect the Federal Judiciary.” That report specifically
describes assaults on two federal judges in their courtrooms.

     2. The USMS believes that the OIG report incorrectly implies that
Congress was concerned about the USMS’s ability to secure the judiciary, when
______________________________________________________________________________________
U.S Department of Justice                                                          47
Office of the Inspector General
Evaluation and Inspections Division
Congress was actually only concerned about the USMS’s failure to follow
budgetary earmarks. The USMS challenges the OIG report citation of
congressional concerns, stating that “[t]he draft report never fully explains
what the [Congressional] concern actually was and whether or not it was
validated.” The USMS goes on to state that “Congress was concerned that the
USMS was not using Judicial Security funding as it had been ‘earmarked’ in
the appropriation.” The USMS further states that the 2003 OIG audit “failed to
find a single case where the USMS spent these funds other than as Congress
intended.”

       OIG Analysis. The USMS suggestion that congressional concern was
limited to a single issue (i.e., earmarks) is incorrect. The OIG report cites
several concerns related to the effectiveness of the Judicial Security Program
that Congress has expressed to the USMS in hearings, questions for the record,
and other correspondence. These concerns include such issues as the criteria
for establishing and removing protective details, protection of the judiciary
during high-threat trials, and USMS participation on the Federal Bureau of
Investigation’s (FBI) Joint Terrorism Task Forces (JTTFs). The report describes
several of these concerns (see, for example, pages 2, 4, 16, 21, and 22), and
recommends improvements to use the resources Congress has provided more
effectively.

       The USMS also mischaracterizes the finding of the 2003 OIG audit by
stating that the audit “failed to find a single case where the USMS spent these
funds other than as Congress intended.” In fact, the audit found that because
the USMS does not have a budget execution system that tracks changes,
obligations, and expenditures to the budget estimates included in
congressional spending instructions, the USMS could not demonstrate
adherence to 7 of the 17 FY 2002 spending instructions from the Congress and
9 of the 22 FY 2003 spending instructions.54

      3. The USMS states that it has no information that any judge is under
an express death threat from a terrorist group. The USMS states that it “has
no information that any judge is under such a threat,” but it does state that



       54   Department of Justice, Office of the Inspector General, Budget Execution in the
United States Marshals Service During Fiscal Years 2002 and 2003, Report No. 04-02, October
2003, pages 8 and 19.
______________________________________________________________________________________
U.S Department of Justice                                                              48
Office of the Inspector General
Evaluation and Inspections Division
“those judges who are at increased risk as a result of their participation in
terrorist trials have the highest levels of security possible.”

      OIG Analysis. The discussion in the report regarding the personal
protective measures that have been maintained on two judges for over eight
years is based on our interviews with USMS headquarters and field personnel,
as well as our review of documents which describe the threats that were the
impetus for the protective measures. The specific statement that the two
judges are under express death threats is our unclassified characterization of
the description in intelligence documents regarding the threats. Although
further discussion of the nature of the threats and how they were received is
not appropriate for an unclassified document, we note that the long-term
maintenance of these two protective details, supported by direct funding from
Congress, would not be appropriate in the absence of a continuing identifiable
threat.

      4. The USMS objects to the report’s conclusions regarding shortcomings
in assessing threats, an ad hoc approach to security on high-threat trials and
personal protective details, outdated policies, and ineffective allocation of
resources. The USMS states that the report’s “statements are made without a
single example of when these alleged inadequacies resulted in a trial being
disrupted or a member of the judicial family being injured.”

       OIG Analysis. The USMS’s objections to our conclusions focus on the
absence of realized threats or actual attacks, rather than on the increased risk
to the federal judiciary that accrues from inadequate threat assessment, the
lack of a centralized intelligence capability, and the lack of standards for
protective measures. In so doing, the USMS response fails to fully comprehend
the seriousness of those shortcomings. Our report shows that the process the
USMS uses to analyze threats is outdated and untimely; the USMS itself
recognized the lack of a centralized intelligence capability as a weakness; and
that USMS standards for addressing high-threat trials are inadequate. We
address each statement in the USMS response regarding specific shortcomings
in turn:

       •   Shortcomings in assessing threats. As documented in our report, the
           USMS does not meet its own standards for assessing threats against
           the judiciary. Further, internal studies have recognized that the

______________________________________________________________________________________
U.S Department of Justice                                                          49
Office of the Inspector General
Evaluation and Inspections Division
           USMS does not have a program for collecting and assessing
           intelligence and using that intelligence to analyze threats.

       •   Ad hoc approach to security on high-threat trials and personal
           protective details. The USMS defends its ad hoc approach to high-
           threat trial security by stating that “requirements for every high threat
           trial…are determined on a case-by-case basis…” and asserting that its
           operational plans are implemented by “personnel who have received
           specialized training and who utilize the latest in high tech security
           equipment.” Our conclusion that uniform judicial security standards
           are needed is based in part on discussions with USMS staff in several
           districts. The U.S. Marshals and Deputy Marshals we interviewed
           emphasized the importance of consistent security measures and
           complained of insufficient criteria for determining the appropriateness
           of existing measures to guide districts in selecting protections when
           developing operational plans. We did not assess whether specific
           protective techniques described in operational plans were “adequate”
           or “appropriate.” Our report concludes that without effective current
           standards, and routine after-action reports, the USMS cannot identify
           inconsistent protections, needed improvements, or successful
           protective measures for ensuring the security of the federal judiciary.

       •   Outdated policies. Our conclusions about the lack of up-to-date
           policies were based on the concerns expressed to us by personnel in
           the USMS districts who must determine and implement protection
           techniques that are “adequate” or “appropriate.” Our report states:

                     [T]en U.S. Marshals and Deputy Marshals that we
              interviewed noted that the guidance in the Manual does
              not address many types of trials that present significant
              risks to the judiciary, such as criminal cases involving
              espionage, prosecutions of gang violence, and cases with
              cooperating witnesses. Moreover, a significant defining
              issue in recent high-threat trials − that the defendants
              are associated with international terrorist groups − is not
              included.

       •   Ineffectively deployed equipment. Our conclusions regarding the
           deployment of equipment were based on our discussions with field
______________________________________________________________________________________
U.S Department of Justice                                                          50
Office of the Inspector General
Evaluation and Inspections Division
           personnel regarding the availability and use of “high tech” security
           equipment. For example, we found that one district did not use its
           new explosives detector because of a lack guidance from
           headquarters:

                     [A] district we visited did not use its new “Itemiser3
              Trace Explosive Detector” during a high-threat trial
              because the district was waiting for guidance from USMS
              headquarters on where to deploy the equipment (public or
              freight entrance), who should be screened, and what
              protective measures should be taken if suspected
              explosives are detected (e.g., retest for false positive or
              immediately evacuate the building).

       •   Ineffective allocation of resources among threats. We could not
           validate the USMS’s comment that “94 per cent of all requests for
           special assignment resources are approved.” In fact, during our
           review, in response to our request for funding data on high-threat
           trials, a representative of the Judicial Security Division (JSD) told us
           that, “JSD does not keep a data bank for the amount of requests that
           come to JSD, JSD keeps a data bank on the amount of requests that
           are approved.” Moreover, “approval” does not mean that all resources
           requested were provided.

       Effectiveness of the Judicial Security Program

       The USMS response states as a general theme that the OIG report
misrepresents the effectiveness of the Judicial Security Program. To the
contrary, our report appropriately warns of significant vulnerabilities in critical
elements of the USMS’s program. The intelligence and threat assessment
capabilities we examined were implemented in response to the assassinations
of two federal judges in 1988 and 1989. The fact that no member of the
judiciary has been assassinated in the past 15 years is not a valid response to
the need to correct shortcomings we identified in the USMS’s threat analysis
capability or the lack of a centralized intelligence capability. Further, the
USMS’s argument that neither of the judges attacked in 1988 and 1989 was
overtly threatened prior to being attacked reinforces our concern that the
USMS lacks the intelligence and analytical capabilities it needs to effectively
and timely detect and respond to nascent threats.
______________________________________________________________________________________
U.S Department of Justice                                                          51
Office of the Inspector General
Evaluation and Inspections Division
       Finally, the USMS’s argument that the lack of recent attacks equates to a
lack of vulnerabilities reinforces our conclusion that the USMS needs to
improve its ability to self-assess its operations and recognize weaknesses before
failures occur. To meets its Strategic Performance Measure of allowing “zero
assaults” on the judiciary, we believe the USMS should improve its ability to
recognize and take prompt action on deficiencies, such as the ones we
identified.


       RECOMMENDATIONS

      Recommendation 1: Ensure that all threats to the judiciary are
assessed within established timeframes.

      Summary of USMS Response. The USMS agrees with the
recommendation that all threats should be assessed according to policy. The
USMS will revise its policy on timeframes for the Analytical Support Unit (ASU)
to complete assessments. The new policy will establish criteria that categorize
requests according to urgency. Once the policy is implemented, adherence to
the timeframes will be made a factor in the annual performance evaluations of
the ASU staff. The USMS estimates that the new policy will be implemented by
the end of August 2004. The USMS also will review the workload of the ASU
and will request additional resources during the FY 2006 budget process, if
necessary.

      OIG Analysis. Recommendation 1 is Resolved – Open. The actions
planned by the USMS to revise its policy concerning ASU assessment
timeframes are responsive to our recommendation. Please provide us with a
copy of the new policy by September 30, 2004.

     Recommendation 2: Update the historical threat database or develop a
new database to perform comparative assessments.

      Summary of USMS Response. The USMS agrees with the
recommendation that the threat database should be updated. In addition, the
USMS believes that the threat database is a valuable part of the overall threat
assessment and response process. However, the USMS believes that the draft
report greatly overstates the role of the database and the adverse impact of not
______________________________________________________________________________________
U.S Department of Justice                                                          52
Office of the Inspector General
Evaluation and Inspections Division
having it current. The USMS bases its assessment, at least in part, on a recent
validation of the historical threat database prompted by our draft report,
concluding that the validity of the database remains relatively high. This may
be true for resource allocations based on the database, but an estimate of
validity based on results alone has little or no applicability to the use of the
database as an assessment tool. Similar results may be attributable to
different variables, particularly when the database has not been updated since
1996. The USMS stated that a requirements analysis on updating the
database is underway and should be completed by March 15, 2004. Once
completed, the cost and time to complete the project will be determined.

      OIG Analysis. Recommendation 2 is Resolved – Open. We disagree with
the USMS’s opinion that the report overstates the role of the historical threat
database and the adverse impact of it being out-of-date. The database was
part of the improvements implemented after two judges were assassinated in
the 1980s, and it is intended to, among other things, assist in ensuring that
appropriate personal protective measures are taken at the district level. An
out-of-date threat assessment tool affects it value and decreases the potential
that a threat against a member of the federal judiciary will be assessed
accurately. Notwithstanding the USMS’s assertions regarding the database, the
actions planned by the USMS are responsive to our recommendation. Please
provide us with a copy of the completed requirements analysis and the project’s
implementation plan by April 30, 2004.

       Recommendation 3: Assign full-time representatives to all 56 FBI field
office JTTFs and ensure effective USMS liaison with intelligence agencies (e.g.,
the U.S. Secret Service’s National Threat Assessment Center, the Central
Intelligence Agency, and the National Security Agency).

      Summary of USMS Response. The USMS agrees that having a full-time
representative on all JTTFs is desirable. The USMS states that it has been
steadily increasing its JTTF representation since September 11, 2001, without
the appropriation of positions specifically for that purpose. The USMS will seek
additional positions in the FY 2006 budget to assign at least one full-time
employee on each of the FBI’s JTTFs. In addition, the USMS stated that it has
assigned personnel to, and has an active and ongoing relationship with,
external intelligence agencies.

     OIG Analysis. Recommendation 3 is Resolved – Open. The actions
undertaken and planned by the USMS are generally responsive to our
______________________________________________________________________________________
U.S Department of Justice                                                          53
Office of the Inspector General
Evaluation and Inspections Division
recommendation. However, the delay until a request for additional resources is
submitted and approved postpones addressing the USMS’s intelligence
vulnerability until 2006 or later. By April 30, 2004, and quarterly thereafter
until full representation on JTTFs is achieved, we request that the USMS
provide us with a roster of all its full-time and part-time representatives on
JTTFs.

      Recommendation 4: Create a centralized capability to identify, collect,
analyze, and share intelligence with USMS districts, as well as with the USMS
JTTF representatives and other intelligence liaisons.

      Summary of USMS Response. The USMS agrees with the
recommendation. The USMS response states that prior to the OIG review it
already had created an Office of Intelligence with a senior Criminal Investigator
designated as its Chief. To establish the office as a functioning entity, the
USMS will seek the resources needed to fully staff the office as part of the FY
2006 budget process. In the meantime, the USMS will explore ways to provide
additional staffing to the office on a temporary duty basis.

       OIG Analysis. Recommendation 4 is Resolved – Open. The actions
undertaken and planned by the USMS are responsive to our recommendation.
Please provide us with a copy of the Office of Intelligence’s mission statement,
staffing requirements, and implementation plan by
April 30, 2004.

      Recommendation 5: Require that all Chief Deputy Marshals and USMS
JTTF representatives have Top Secret clearances, and ensure that each district
has secure communication equipment.

      Summary of USMS Response. The USMS agrees with the
recommendation. However, the USMS states that the OIG did not address the
progress that the USMS has made in increasing the number of employees with
security clearances since September 11, 2001. According to the USMS, all 94
U.S. Marshals and 77 of the 94 Chief Deputy Marshals currently hold a Top
Secret clearance. The remaining 14 Chief Deputies are being processed for Top
Secret clearances (three Chief Deputy positions are vacant at this time). The
USMS also responded that of the 49 USMS employees it has assigned to JTTFs,
42 have Top Secret or interim Top Secret clearances.

______________________________________________________________________________________
U.S Department of Justice                                                          54
Office of the Inspector General
Evaluation and Inspections Division
      The USMS responded that the current Chief Deputy Marshals and JTTF
representatives without Top Secret clearances will receive their clearances
within 30 days of completion of their OPM background investigations. In
addition, newly appointed Chief Deputy Marshals and JTTF representatives will
have background investigations initiated within 15 days of their appointment,
and interim Top Secret clearances within 30 days of appointment.

      Concerning the issue of secure telephone communications equipment,
the USMS states that it has increased the number of districts with this
capability to 63 (from 51 on August 20, 2003) and that this equipment is on
order for the other 31 districts. The remaining secure telephone
communications equipment is scheduled to be deployed by June 30, 2004.

       OIG Analysis. Recommendation 5 is Resolved – Open. The actions
undertaken and planned by the USMS are responsive to our recommendation.
Please provide us with a copy of the USMS policy for issuance of security
clearances by April 30, 2004. Also, please include the clearance information
for each representative on the quarterly reports requested under
recommendation 3. In addition, please provide us with a status report on the
installation of secure telephone communications equipment in each of the 94
districts by July 30, 2004.

      Recommendation 6: Revise the 1993 Judicial and Court Security
Manual and the 1999 Offsite Security Booklet for Judicial Officers to establish
risk-based standards and require after-action reports for high-threat trials and
protective details.

       Summary of USMS Response. The USMS agrees with the
recommendation. However, the USMS states that the basic information and
guidance in both the 1993 Judicial and Court Security Manual and the 1999
Offsite Security Booklet for Judicial Officers are still sound and that nothing in
either document would jeopardize security if followed.

       The USMS recently completed a new protocol for conducting judicial
threat assessments and has developed risk-based criteria to be used when
planning high-risk trials, protective details, and threat investigations. The
USMS has posted this protocol and risk-based criteria on the USMS intranet
web site and provided copies to the OIG. Further, the USMS states that
revisions to the 1993 Judicial and Court Security Manual, the 1999 Offsite

______________________________________________________________________________________
U.S Department of Justice                                                          55
Office of the Inspector General
Evaluation and Inspections Division
Security Booklet for Judicial Officers, and after action-report requirements will
be completed by the end of August 2004.

      OIG Analysis. Recommendation 6 is Resolved – Open. The actions
undertaken and planned by the USMS are responsive to our recommendation.
The USMS’s statement that following the guidance in the 1993 and 1999
documents would not in itself jeopardize security is not persuasive. The
documents are out-of-date and the guidance contained in them is incomplete.
The revisions that the USMS agrees to make must include all the actions
necessary to ensure the protection of the federal judiciary. Please provide us
with a copy of the revised Judicial and Court Security Manual, the Offsite
Security Booklet for Judicial Officers, and after action-reporting requirements by
September 30, 2004.




______________________________________________________________________________________
U.S Department of Justice                                                          56
Office of the Inspector General
Evaluation and Inspections Division
